<html>
<title> - THE DEMOCRATIC REPUBLIC OF THE CONGO: SECURING PEACE IN THE MIDST OF TRAGEDY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 THE DEMOCRATIC REPUBLIC OF THE CONGO: SECURING PEACE IN THE MIDST OF 
                                TRAGEDY

=======================================================================

         Minus 20 pts for each extra line of title deg.HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2011

                               __________

                           Serial No. 112-46

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
65-058                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Donald Y. Yamamoto, Principal Deputy Assistant Secretary, 
  Bureau of African Affairs, U.S. Department of State............     9
Ms. Rajakumari Jandhyala, Deputy Assistant Administrator, Bureau 
  for Africa, U.S. Agency for International Development..........    25
Mr. Ben Affleck, actor, writer, director, & advocate.............    50
Ms. Francisca Vigaud-Walsh, sexual and gender-based violence 
  advisor, Catholic Relief Services..............................    68
Mr. John Prendergast, co-founder, The Enough Project.............    79
Mrs. Cindy McCain, philanthropist................................    88

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Donald Y. Yamamoto: Prepared statement.......................    12
Ms. Rajakumari Jandhyala: Prepared statement.....................    28
Mr. Ben Affleck: Prepared statement..............................    55
Ms. Francisca Vigaud-Walsh: Prepared statement...................    71
Mr. John Prendergast: Prepared statement.........................    82

                                APPENDIX

Hearing notice...................................................   108
Hearing minutes..................................................   110
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................   111
Mr. Ben Affleck: Material submitted for the record...............   112
The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey: Material submitted for the record.....   119


 THE DEMOCRATIC REPUBLIC OF THE CONGO: SECURING PEACE IN THE MIDST OF 
                                TRAGEDY

                              ----------                              


                         TUESDAY, MARCH 8, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:10 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. Good 
afternoon, everyone. I want to thank you all for joining us on 
this very important hearing on the Democratic Republic of the 
Congo at this critical juncture in its history. As one might 
conclude from the significant media interest evident in the 
room, we do have a special guest witness joining us today to 
spotlight attention on the Democratic Republic of the Congo. I 
am grateful to Ben Affleck for agreeing to be here to share his 
perspectives and that of the Eastern Congo Initiative that he 
founded. He is to be highly commended for contributing his 
time, finances, and fame to bring the world's attention to the 
needs of the people who have suffered far too long and in a 
great deal of obscurity.
    I would also like to recognize Ms. Cindy McCain, who is 
also with us today. Ms. McCain is a founding member of and 
investor in the Eastern Congo Initiative and shares Mr. 
Affleck's dedication to ending the suffering in this region. 
She also has dedicated her time and energy to a number of other 
very worthwhile projects. For example, she serves on the boards 
of directors of several nonprofit philanthropies, including 
Operation Smile, which provides reconstructive surgery to 
children with facial deformities, and the landmine removal 
group, The HALO Trust.
    Mr. Affleck and his organization are making a major 
contribution in focusing political will on resolving the crises 
in the DRC and bringing constructive recommendations to the 
table. But just as importantly, he is setting an example for 
all of us as to the need to direct whatever resources and 
influence we may have to help those who are less fortunate and 
without a voice to help themselves. And for his presence, 
perspective and example, the subcommittee is most appreciative.
    I am also grateful for our distinguished witnesses who are 
here as well. We look forward to examining the administration's 
current strategy for and involvement in the DRC with the 
Principal Deputy Assistant Secretary of the Bureau of African 
Affairs, Ambassador Donald Yamamoto, and USAID's Deputy 
Assistant Administrator for the Bureau for Africa, Rajakumari 
Jandhyala. We will hear about the Catholic Relief Services' 
experience in the DRC as well, particularly in addressing the 
abhorrent and widespread practice of sexual violence as a 
weapon of war from their sexual and gender-based violence 
advisor, Francisca Vigaud-Walsh.
    And finally, the subcommittee again welcomes John 
Prendergast of the Enough Project to learn from his 
extraordinary expertise in the region, particularly on the 
issues of conflict minerals. Mr. Prendergast reminds us boldly 
in his testimony that the conflict minerals provision, Section 
1502, requires the administration to develop a strategy for 
addressing linkages between the trade in conflict minerals, 
armed groups and human rights abusers in eastern Congo by 
January 17th. This strategy has not yet been submitted; 
however, I hope it is coming soon, and that will be an obvious 
question for Ambassador Yamamoto.
    An individual from the DRC was invited to testify at this 
hearing, but fortunately arrangements could not be made in 
time. I can assure you the DRC will be an ongoing focus of our 
subcommittee, and I am certain that we will hear from DRC's 
citizens and indigenous activists at a future hearing.
    My friends, I had the privilege of traveling to the DRC 
back in 2008, and I still have vivid memories of both the 
suffering and the courage of the Congolese people. A highlight 
of my visit was meeting Dr. Jo and Lyn Lusi, founders of HEAL 
Africa Hospital in Goma. I met with several women who had been 
subjected to severe sexual violence, including rape, and spoke 
to many women who were in the process of healing and recovery. 
The courage, the resilience, and the resolve of these victims 
to overcome all that had affected them was truly astonishing, 
and the meticulous care and compassion of the hospital staff 
was absolutely remarkable.
    I am pleased to know that USAID has supported fistula 
prevention and treatment in the DRC since 2005, including 1,000 
repairs at the HEAL Africa and Panzi Hospitals in Fiscal Year 
2010. In 2005, I would note, I sponsored legislation that 
included authorization of assistance to establish centers for 
the treatment of obstetric fistula in developing countries. 
This legislation passed the House but did not get through the 
Senate for unrelated reasons. However, Mr. Kent Hill, the USAID 
Assistant Administrator for Global Health, agreed to 
significantly bolster USAID's funding for fistula programming. 
The women of the DRC, together with thousands of other women 
around the world, have benefited as a result.
    As the prime sponsor of the Trafficking Victims Protection 
Act of 2000, I am especially interested, and I hope the 
administration witnesses will address this, in the DRC's Tier 
III ranking as an egregious violator when it comes to human 
trafficking. Has it improved since the Trafficking in Persons 
Report was submitted and what has and can be done to 
reintegrate former child soldiers?
    The Democratic Republic of the Congo has an abundance, as 
we all know, of valuable natural resources, water, arable land 
and people, making the DRC a potential leader in terms of 
prosperity and development on the continent. But like too many 
of its neighbors, it faces enormous challenges.
    The people in the DRC have endured ongoing violence and 
bloodshed for decades and often have not been paid attention 
to, again why I think Ben Affleck, in the appearance today, 
finally brings us much needed, often neglected attention to the 
DRC.
    The country has been the scene of one of the longest and 
deadliest manmade humanitarian crises in the world, 
characterized by two major civil wars involving seven 
neighboring countries; multiple cross-border conflicts; 
fighting by and among foreign proxies, militia groups and rebel 
movements; the illicit activities, including the illegal 
exploitation of mineral resources; an absence of governance; 
human rights atrocities directed against civilians by all 
parties, including the predatory Congolese military; and an 
unreliable U.N. peacekeeping force, which I am told is getting 
better. Millions of people in the DRC have died from wars and 
war-related malnutrition and disease since 1998 and nearly 2 
million are displaced. The sufferings of war have been 
compounded by horrific human rights abuses committed against 
innocent women and children.
    The country as a whole faces enormous challenges. The DRC 
is one of the five poorest countries in the world, with 80 
percent of its people living on just $2 a day. Corruption is 
rampant, as evidenced by the DRC's ranking 164 out of 178 
countries surveyed by Transparency International's 2010 
Corruption Perceptions Index. The country is tenth among the 
world's 22 high-burden tuberculosis countries, and malaria 
accounts for 35 percent of the deaths of children under the age 
of 5. Life expectancy is only about 51 years. An estimated 8.2 
million, or one out of every eight people in the DRC, are 
orphans and vulnerable children.
    Clearly, this country and the surrounding region are in 
desperate need of peace and the coordinated efforts of the 
world community to prevent a complete loss of its people's hope 
for the future.
    The upcoming Presidential and parliamentary elections in 
November render this a particularly critical time to focus our 
attention on the U.S. strategy for addressing the many issues 
confronting the Congolese people and government. And given that 
today is International Women's Day, this is a particularly 
appropriate occasion to recognize the courageous women of the 
Democratic Republic of the Congo. In addition to the hardships 
that unduly impact women in situations of conflict and under 
development, the women in the DRC have had to endure years of 
brutal victimization of rape and other forms of sexual violence 
used as a weapon of war. An estimated 200,000 women have been 
raped there since 1998. Their physical and psychological 
suffering has been compounded by the ongoing absence of 
measures to prevent future attacks, the impunity with which the 
perpetrators continue in their communities or the military, and 
the stigma wrongly placed on the victims by Congolese society.
    A recent report by a U.N. panel detailed interviews held 
with victims of sexual violence in the DRC. While the plight of 
all the victims is heart wrenching, the interviews with those 
in the Kivus who are still experiencing ongoing armed conflict 
are worth emphasizing. These women are desperately in need of 
the most basic necessities--medical care, housing and a means 
of supporting themselves and their children. But when asked 
what they would like to have done to restore their lives and 
regain their dignity, virtually every one responded that peace 
and security is their first and most immediate need. They 
pleaded with the panel to convey this message to the world 
because without peace and security, anything else they might 
acquire could be lost again at any time. Our primary goal of 
this hearing is to answer these women's plea.
    I would like to turn to my good friend and colleague, Mr. 
Payne, for any opening comments he might have.
    Mr. Payne. Thank you very much. And let me congratulate 
you, Mr. Smith, on assuming chairmanship of this subcommittee, 
and I certainly look forward to our continued working together 
on these issues of mutual interest and concern that we have had 
over the years. I certainly want to also welcome the new 
Democratic members to the committee. He is not here right now, 
but Mr. Carnahan is a former chair of the subcommittee that in 
the last Congress had jurisdiction over human rights, which, as 
you know, our subcommittee has expanded that, so he will 
certainly bring in experience there, and is a dedicated 
advocate for the rights and the needs of refugees and displaced 
persons, women, and is passionate about assisting child 
soldiers, as well as empowering women as peace builders. Mr. 
Carnahan's commitment to Africa runs in his veins. His 
grandfather, A.S.J. Carnahan, became the first United States 
Ambassador to the newly independent Sierra Leone in 1961, and 
so he has a very strong interest and has had a number of 
conversations with me about Africa.
    We also are pleased to be joined by Ms. Karen Bass, who is 
not only new to the committee but she is new to Congress; 
however, a former Speaker of the California Assembly, the first 
African-American woman to hold a Speaker's gavel in the history 
of this Nation. And so we are very pleased and honored to have 
her as a member of our committee. And so she is no strange to 
legislating. I welcome the opportunity to help Ms. Bass turn 
her experience and interest in health, women's rights, and 
economic empowerment into policies that can benefit the 
enterprising women of Africa and their children.
    I am excited to have this small but powerful team with us 
here on our subcommittee. I want to also recognize 
Representative McDermott, author of the bipartisan Conflict 
Minerals Act, which is an important tool for accomplishing 
long-term stability and economic growth, and he is also the 
author of the AGOA Act. We have called him the father, but he 
has gotten older so we call him the grandfather now of the AGOA 
Act. So it is good to have my classmate Mr. McDermott here 
today.
    It is fitting, Mr. Chairman, that we begin our subcommittee 
business for the 112th Congress by highlighting a foreign 
policy challenge that resonates in the hearts and minds of so 
many Members of Congress, Democrats and Republicans. The 
humanitarian crisis in eastern Congo has captured the attention 
of thousands of Americans from all walks of life. Our 
commitment to solving this problem exemplifies that Americans 
care deeply about these issues and really want to see a 
resolution. As a former teacher, I know that we must understand 
a problem before we begin to tackle it. We must understand the 
history of the Congo and the Great Lakes region, perhaps the 
richest, most fertile area on the continent.
    Many here today will talk about the ravaged militias that 
continue to terrorize the eastern part of the country. I want 
you to understand that the ravaging began in the late 1880s 
when King Leopold of Belgium savagely and gruesomely sought out 
to strip the Congo of its vast natural resources, which 
continued to be a source of conflict in that country back then 
and continues on today. Leopold's nightmare reign in the Congo 
left 58 million Congolese dead and even more maimed. The 
atrocities that we witness today are the vestiges of Leopold's 
bloody enterprise. For decades this region's wealth washed 
ashore in ships at ports in Antwerp and Congo's loss became 
Leopold and Belgium's gain. As destructive as their rape of the 
Congo was on the country's natural resources, the impact on its 
people is immeasurable and still plays out today, yet its 
impact is still misunderstood and underestimated.
    As we contextualize the gruesome violence in Congo, we know 
that this gruesome history is no excuse for the ugly reign of 
terror that armed groups such as the FDLR and the LRA have 
perpetrated against the people of the Congo. There is no excuse 
for impunity. The humanitarian crisis in eastern Congo has 
captured the attention of thousands of Americans across this 
country. Rape and sexual violence are used as a weapon of war 
in numbers that are simply unimaginable. In addition to the 
Lord's Resistance Army, led by Joseph Kony, continues to havoc 
on parts of the DRC.
    The DRC continues to face insurgency from armed major 
groups and a major humanitarian crisis continues, especially in 
the eastern Congo, fueled by a resource grab. The integration 
of many former domestic rebels from the CNDP into the Congolese 
Army has presented serious challenges with professionalizing 
the security sector. The current reconfiguration of the 
Congolese Army units in the Kivus, in an apparent effort to 
eventually draw down the U.N.'s Amani Leo peacekeeping 
operations, have the potential to leave civilians in some areas 
of the east at the mercy of the FDLR and other non-state armed 
groups. All of this is compounded by the troubling political 
developments and turmoil in Kinshasa and the lack of overall 
preparedness for the upcoming elections scheduled for November.
    The American people and indeed the world are not willing to 
watch idly by as women and children in the DRC are victimized 
time after time, time and again, year after year. They have 
advocated over the last few years, and we have advocated 
bipartisan legislation such as the conflict minerals bill and 
the LRA legislation. Americans from red, blue and purple 
districts come together for the people of the Congo. That is a 
united effort. The people of the Congo deserve to see firsthand 
the resounding impact that our relatively small foreign aid 
investment can have on the world's most vulnerable population. 
Indeed, while the human needs are enormous, the required 
economic commitment is miniscule when compared to the $100 
billion yearly committed in Afghanistan and trillions of 
dollars we spent in Iraq during our course of time there, and 
the potential impact is monumental. The United States must 
leverage the good will that the American people have for the 
people of eastern Congo by devising--and having a coherent and 
a focused policy toward the Congo, and that is what I hope we 
can have as a conclusion of these hearings as we move forward.
    I must close by saying it is fitting, as Mr. Smith 
mentioned, that this hearing is on the 100th anniversary of 
International Women's Day. Ending sexual violence as a weapon 
remains one of the greatest challenges to the protection of 
women's human rights. While the survivors can be as young as a 
girl or her grandmother, we must do all we can to end this 
scourge. The White House, the State Department, Capitol Hill 
and the American people all understand the importance of 
reducing violence in eastern Congo. This means regulating trade 
and conflict minerals that act as an economic fuel to the 
conflict, creating the political will to reform the Congolese 
National Army from predators or making them from predator to 
protector and tackling impunity for war criminals and illegal 
actors that continue to enable those most responsible for mass 
atrocities.
    The United States in its role on the U.N. Security Council 
recently demonstrated strong leadership on the passage of U.N. 
Resolution 1960, which requires the Council and member states 
to honor commitments to combat sexual violence and conflict, 
investigate abuses, and hold perpetrators to account. I 
encourage the United States to continue to lead on this issue 
by developing a strategy to tackle the root causes of sexual 
violence and other human rights crimes in eastern Congo.
    The United States is the largest contributor to the United 
Nations Mission in Congo, or MONUSCO, and the first country to 
pass the law monitoring publicly traded companies using 
minerals mined in the Congo or its neighbors in an effort to 
reduce the direct or indirect financing of illegal groups. The 
Departments of Defense and State are engaged in initiatives to 
build capacity through military professionalization and justice 
training. We must also ensure that we continue strong programs 
and policies that give women in the Congo back their dignity. 
We all want to see a day when the women of eastern Congo are 
able to feed their families, earn a decent living, protect and 
defend their communities, and sit at the peace building table 
with the men.
    Thank you, Mr. Chairman, and I appreciate this meeting and 
look forward to our very distinguished panel of experts. Thank 
you.
    Mr. Smith. Thank you very much, Mr. Payne. The Chair 
recognizes the vice chairman of the subcommittee, Jeff 
Fortenberry.
    Mr. Fortenberry. Thank you, Chairman Smith, for convening 
this very important hearing, and I think it is important to 
note that it is especially poignant that today is International 
Women's Day, as we hold the hearing for the more than 200,000 
women in the Democratic Republic of the Congo who have been 
heinously victimized in recent years. Last year alone nearly 
15,000 new cases of sexual violence were reported in the 
country, thousands of which involve children, and those numbers 
don't reflect the many women who must remain silent. But this 
hearing today breaks that silence.
    The intense human tragedy in the Democratic Republic of the 
Congo continues to weigh heavily upon all of us. While numerous 
signs of democratic progress have been seen in recent years, 
civil strife has reached an unfathomable high in some areas, 
particularly in the eastern part of the country. The social 
emergency is seen quite clearly in a recent study that revealed 
rape has increased 17-fold within the country.
    In the last Congress we made two significant strides toward 
mitigating two sources of the conflict by passing the Lord's 
Resistance Army Disarmament and Northern Uganda Recovery Act of 
2009, as well as the conflict minerals provisions in another 
law. We also directed millions of dollars in humanitarian 
assistance to the victims of sexual and gender-based violence. 
But aid can hardly keep pace with the staggering numbers of new 
rape victims each year.
    Sexual violence in the Democratic Republic of the Congo is 
the worst in the world in both its pernicious scope and 
unrelenting brutality. The scourge of rape is especially 
prevalent in the Kivu provinces where we saw last year a 
particularly monstrous series of systematic rapes by rebel 
fighters. As we later learned, these vicious attacks were 
committed less than 20 miles from a U.N. peacekeeping base, 
which only learned of the month-long attack a week after their 
end. Since that inexcusable lapse, the U.N., with the Congolese 
Government and other nongovernmental organizations, 
successfully brought to trial and convicted nine FARDC 
soldiers, including their commanding officers, for crimes of 
mass rape last month. I join with the United States Government 
in commending this conviction. The rule of law did prevail, but 
there are many, many more perpetrators who not only elude 
justice, but flout the most basic notions of humanity through 
their brutal acts of extreme violence toward the daughters of 
the Congo.
    But our human rights concerns lie not only with the scourge 
of gender and sexual-based violence in the DRC, child 
conscription by rebel forces, but purportedly by the Congolese 
military itself, continues. UNICEF released a new report this 
past Friday warning that despite the reintegration of as many 
as 5,000 former child soldiers in the DRC, forcible child 
recruitment is an ongoing problem.
    As we give attention to the victimized women and girls of 
the DRC, we must also give special consideration to the plight 
of girl soldiers who are often victims of grotesque sexual 
slavery and violence as well. These girls, stripped of 
innocence and dignity, face heartbreaking stigma and challenges 
as they seek to reintegrate into their families and their 
community.
    So today, Mr. Chairman, I do look forward to hearing the 
U.S. State Department and USAID's efforts to help bring peace 
to this tragedy worn country, as well as the unique on-the-
ground perspectives from the Eastern Congo Initiative, Catholic 
Relief Services, and the Enough Project. Thank you all for 
coming today, thank you for your important work, and I look 
toward to our hearing.
    Mr. Smith. Thank you, Mr. Fortenberry. I now yield to Ms. 
Bass.
    Ms. Bass. Thank you. Thank you, Chairman Smith and Ranking 
Member Payne. Since this is our first subcommittee meeting, I 
wanted to start by expressing my sincere enthusiasm about 
serving on this committee on Africa, Global Health, and Human 
Rights. It is also an honor to serve with Chairman Smith. I 
know that you are committed to improving lives around the world 
and are particularly passionate about preventing sex 
trafficking. I look forward to learning about your legislation 
and working with you.
    And to Ranking Member Payne, Representative Payne is well 
known in my district in Los Angeles. And I represent a section 
of my district as Little Ethiopia, and I have a number of 
African residents who live in the district. And Representative 
Payne is well known there, as he is throughout the country, for 
his effective leadership and ability to move policy that makes 
a significant difference around the world.
    I would like to thank our witnesses for your dedication and 
to establishing peace and prosperity in the DRC. Your work 
truly keeps people alive and contributes to global security.
    The State Department and the USAID have played an important 
role in generating progress toward stability in the DRC, but 
the United States must continue to increase our strategic 
leadership in the Congo. Secretary Clinton's visit in 2009 was 
a great start, but the severity of the violence and instability 
requires heightened and focused U.S. engagement. In fact, U.S. 
leadership is needed now more than ever as we approach the 
November elections, and we expect President Kabila to lift the 
ban on conflict minerals in the east as early as March 10th.
    I want to join my colleagues in acknowledging International 
Women's Day. It has been referenced several times, the 
consequences of the rape of women and girls, but one of those 
consequences is that women make up a significant majority of 
HIV infections in the country with little access to basic 
health services. USAID has led the effort to provide health 
care and services to Congolese women and children. UNICEF 
coordinates effective programs for women and girls that reduce 
infant, child and maternal mortality rates and improve access 
to clean water and sanitation and increase primary school 
enrollment, particularly for girls, who are often denied equal 
access. In the face of grave atrocities in the DRC, we must 
ensure ongoing investment in these programs.
    I look forward to hearing the testimony of our witnesses 
today to learn more about how we can best support the Congolese 
people in addressing these hardships and ultimately transform 
their potential into prosperity.
    Thank you very much.
    Mr. Smith. Anybody else on the subcommittee that would like 
to be heard? Mr. McDermott is with us, and I know it is a 
little bit of a breach of rules, but I would like to yield to 
him if he would like to make some opening comments.
    Mr. McDermott. Thank you, Mr. Chairman. In 1987-1988, I 
lived in Kinshasa and was a regional medical officer with the 
State Department and saw the beginning of the AIDS epidemic as 
well as the conflict that ultimately led to Mobutu Sese Seko 
leaving and followed by Kabila and all of what has followed. I 
have many friends out there. The Lucis are people I have known. 
A friend of mine from Los Angeles that I went to college with 
has been one of the big supporters of that organization, and I 
have been there several times. I really came to listen today. 
So thank you.
    Mr. Smith. Mr. McDermott, thank you very much. I would like 
to now introduce our two distinguished witnesses, leaders in 
the field, who have done much. Ambassador Yamamoto is no 
stranger to this subcommittee, having been before us many times 
in the past. He has served since 2009, though, as the Principal 
Deputy Assistant Secretary for the Bureau of African Affairs of 
the U.S. Department of State. His prior assignments included 
serving as U.S. Ambassador to Ethiopia from November 2006 to 
July 2009, and as Deputy Assistant Secretary of State in the 
Bureau of African Affairs from 2003 to 2006. We are also joined 
by Ms. Jandhyala, who has served as USAID's Deputy Assistant 
Administrator for Africa since October 2010. In this capacity 
she oversees the Offices of Sudan Programs and East Africa 
Affairs and also has a great deal of experience at the 
Department. And I would, without objection, include both of 
your full bios in the record.
    Ambassador Yamamoto.

STATEMENT OF MR. DONALD Y. YAMAMOTO, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Yamamoto. Thank you very much, Mr. Chairman. It 
is indeed a great honor to appear here before the subcommittee 
and I wish to express my congratulations to you, Mr. Chairman, 
on your appointment, and also to the great work of your 
predecessor, Congressman Payne, and also before the 
distinguished members of the subcommittee.
    President Obama, Secretary Clinton and this administration 
have demonstrated a firm commitment to the challenges in this 
region. The violence, the human rights abuse, the suffering of 
the people in the Congo, exploitation of minerals and resources 
are unacceptable, and none of us should tolerate it and we will 
not accept it. The work raised by the good works by your main 
witnesses, Mr. Ben Affleck and by others, by Cindy McCain, 
really are a testament to what the power of what individuals 
can do in the Great Lakes area, and I also notice that my good 
friend John Prendergast and the other NGO groups who are here 
whose work has helped a great deal in moving this process 
along.
    Let me tell you, Mr. Chairman, that the United States 
continues to play a very significant role to make a difference 
in the lives of the people in the DRC and wherever there is 
suffering and tragedy. In the tense years following 2003, we 
led an international effort through our Tripartite Plus peace 
process to address the causes of violence and to end the 
tragedies that promote violence. I was greatly honored to help 
lead the process for nearly 4 years, making some two dozen 
trips to the region. Secretary Clinton traveled to the DRC in 
2009, as have other senior administration officials in the last 
2 years.
    Our overarching goals and objectives in the DRC to resolve 
it lies in governance and security. You need to have a 
government that is accountable to the people. You need a 
security which is reliable and dependable and not part of the 
problem. The U.S. has focused first and foremost on the complex 
security challenges facing the DRC. The shocking incidences of 
mass rape and other human rights abuses that continue in these 
areas are symptoms of several factors that fuel or enable 
violence, each of which requires its own responses.
    One key factor is the continued presence of violent armed 
groups. Among the most notorious are the Democratic Forces for 
the Liberation of Rwanda, or the FDLR, and the Lord's 
Resistance Army, or the LRA, retain a violent and committed 
corps fully capable of carrying out brutal attacks on 
civilians. The U.S. Government has provided significant 
diplomatic and programmatic support to disarm and demobilize 
these groups. Defined capacity of many of these groups has been 
significantly reduced in the last few years, but much more 
slowly than we wished it to happen. The forces of the former 
National Congress for the Defense of the People, or the CNDP, 
remain only partly integrated into the Congolese Army serving 
under the effective command of known human rights abusers and 
retaining in their ranks significant numbers of children 
soldiers.
    The DRC security forces often compound the threat to 
civilians. Developing and reforming these forces is a massive 
undertaking that will require years of persistent support. Our 
assistance in this effort is aimed at both short-term and long-
term progress and includes training of a vetted Congolese 
battalions, capacity building assistance for the DRC's military 
justice institutions, training to officers on the principles of 
leadership, civil-military relations, human rights and command 
responsibility.
    The illicit trade and minerals and other natural resources 
also encourages violence, and the effective Congolese response 
and regional international responses by governments and 
industries will be key to resolving these problems. The United 
States is focused on helping develop civilian regulatory 
capacity, helping to end the role of illegal armed groups, 
criminal networks within the security forces, and promoting 
corporate due diligence and supporting the development of 
regional and national mechanisms to certify and trace the 
minerals trade.
    We appreciate the support of the Congress that has provided 
these efforts, and we are consulting with the Securities and 
Exchange Commission, as you have directed, Mr. Chairman, as 
they develop regulations to promote rigorous corporate due 
diligence.
    Underlying every element of the international community's 
response to the DRC security challenges is MONUSCO, the U.N. 
peacekeeping operation in the DRC. Under the leadership of the 
former U.S. Ambassador Roger Meece, MONUSCO has taken welcome 
steps to improve its effectiveness in civilian protection. We 
are also encouraged by the improved relations between MONUSCO 
and the DRC Government.
    A second theme is governance. The national elections 
scheduled for November of this year are an essential step in 
determining Congo's democratic future. We are watching closely 
to encourage elections that are well and transparently 
administered and that are conducted in an environment conducive 
to free political expression.
    Our other preoccupation in the area of governance is human 
rights. The lack of adequate state capacity and discipline of 
existing state forces continues to fuel existing abuses against 
civilians. We are undertaking substantial programmatic efforts, 
expanding on the Secretary's 2009 pledge, $17 million in 
assistance to respond to and prevent sexual and gender-based 
violence. We are also supportive of modest but encouraging 
recent developments in a few key areas, including the arrest 
and conviction of a handful of high profile alleged abusers and 
the DRC Government's proposal to develop specialized judicial 
chambers to prosecute those who committed atrocities. The 
general situation, however, remains one of impunity, and many 
more positive developments will be required to reverse this 
trend.
    The third theme is economic recovery, which is essential in 
providing alternatives to enlistment and armed groups and 
laying a foundation for development. We are encouraging the DRC 
Government to take the necessary steps to improve the 
investment climate and to enhance transparency in the mining 
sector. With soliciting a ban on mining the DRC's eastern 
provinces expected on March 10th, we encourage all stakeholders 
to work to ensure that minerals leaving the DRC can be traced 
to their origin and that abusive armed forces are cut out of 
the trade.
    Finally, it is worth emphasizing that the renewed 
cooperation among the DRC and its neighbors is a cornerstone of 
this region's future progress. The cooperation, while vastly 
improved over the last 2 years, will need to deepen further in 
the face of new developments, such as the emergence of an 
independent southern Sudan. Helping empower the Congolese 
people and their government to address the challenges they face 
will take time and persistence. The U.S. Government intends to 
remain a strong partner over the long-term.
    The DRC has focused attention of the United States 
Government and the activities that are directed onto the 
Assistant Secretary of African affairs, Johnnie Carson, and 
coordinated with our ambassadors in the field, the interagency 
and our NGO community partners, and also the donor community.
    Mr. Chairman and members of this subcommittee, thank you 
for giving me an opportunity to speak to you today, and I will 
submit a longer version for the record. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Yamamoto follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Mr. Ambassador, thank you very much for your 
testimony. I would like to yield to our second distinguished 
witness.

    STATEMENT OF MS. RAJAKUMARI JANDHYALA, DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Jandhyala. Good afternoon, Chairman Smith, Ranking 
Member Payne, members of the subcommittee. Thank you for 
inviting me to discuss the foreign assistance activities of 
USAID in the Democratic Republic of the Congo, which is 
particularly relevant in recognition of the International 
Women's Day today.
    My name is Rajakumari Jandhyala. I am the Deputy Assistant 
Administrator for Africa Bureau since October 2010, and prior 
to joining the government I had an opportunity to work on the 
continent for 17 years, including the Congo, in the months 
after the Global Accords that were signed in 2003.
    My testimony adds to the themes that Ambassador Yamamoto 
has raised about peace and security, progress toward 
governance, economic development, health and well-being of the 
population.
    As part of the Presidential Policy Directive on Development 
which was issued recently and in support of our foreign policy 
toward the Democratic Republic of the Congo and Administrator 
Shah's efforts to look at our review and look at our approaches 
to assistance on the continent, we really have taken an effort 
to look at Congo as a very complex challenge in terms of like 
Sudan and in Somalia. So we really have a strategy review that 
is going on to look at our complex operations on the continent.
    DRC is yet another example of a place where diplomacy and 
development are critical to assisting the Congolese in finding 
solutions to their current challenges, lay the groundwork for 
meeting the aspirations of its population at the end of the 
day, and build a nation that contributes to regional stability. 
And in that effort we work with both regional organizations, 
international partners and national institutions, both in the 
short term and in the long term.
    The U.S. recognizes the enormous challenges and financial 
resources required to improve conditions, and in that regard 
the U.S. Government continues to be the largest donor in DRC, 
providing $306 million in bilateral assistance in Fiscal Year 
2010, plus support to the U.N. peacekeeping operations, 
MONUSCO, multi-lateral institutions like the UNDP and U.N. 
agencies. U.S. foreign assistance is coordinated among agencies 
through a country assistance strategy that outlines our plans 
for U.S.-Congolese cooperation in addressing the immediate 
needs as well as long-term development needs.
    In addition, we are one of 19 bilateral and multilateral 
donors participating in the common assistance framework 
established in 2007 with the Government of the Democratic 
Republic of the Congo. This gives us the opportunity as the 
international community to really leverage our assets and how 
we bring pressure and establish a dialogue with the Congolese 
on development objectives in the Congo.
    Mr. Chairman, I would like to now review the major 
development challenges in DRC and current summary of USAID 
activities to address them. A written testimony has been 
submitted.
    The DRC, and in particular in the east, continues to 
experience instability, violent conflict, and widespread 
population displacement. A key area of concern remains the 
Lord's Resistance Army. USAID promotes stability through 
community reconciliation, infrastructure, livelihood recovery 
and ex-combatant reintegration. Our Offices of Foreign Disaster 
Assistance and Food for Peace have ongoing commitments to 
provide emergency humanitarian and food relief where LRA are 
active. We are currently working on a regional strategy in 
support of LRA issues, as part of our northern Uganda strategy 
as well, to find the linkages in CAR, Northern Uganda, and 
Congo.
    With regards to conflict minerals, our activities are in 
support of the 2010 Dodd-Frank legislation, which includes 
reporting requirements for mineral origin. In DRC the legal 
mineral trade fuels armed groups and undermines legitimate 
economic activity. To reduce the security and governance 
problems relating to conflict, and the trade in conflict 
minerals which results in the violence, USAID seeks to improve 
enforcement of the DRC mining code through regulatory support 
and rehabilitation of roads, and build capacity for better 
monitoring and transparency, including certification.
    Addressing human rights abuses and sexual and gender-based 
violence is a high priority for USAID. USAID activities provide 
access to support services for rape and abuse survivors and 
their families, including medical care, counseling and legal 
aid where women are afraid to report to local authorities, and 
how we deal with the local justice to support their efforts. 
More importantly, we also support women survivors and 
livelihoods. Many times they are not participating in the 
community recovery activities that are taking place.
    In addition to addressing the immediate needs of survivors, 
USAID has supported drafting critical legislation and 
subsequent prosecution related to sexual violence, and this 
continues to be an ongoing challenge given the weakness in the 
justice institutions and sectors. And we are trying to work 
with both at the national level at the community justice 
mechanisms at the moment.
    Turning to democracy and governance, USAID focuses on 
capacity building among legislators, civil society 
organizations, and media. We also work to improve the 
independence of the judicial sectors and bring legal services 
to remote populations such as mobile courts where they are 
possible.
    In preparation of the DRC's Presidential and legislative 
elections plan for this fall, USAID continues to build on our 
strengths and citizen outreach and mobilization. More than 8.2 
million voters across the DRC's 11 provinces are expected to be 
reached by civic education programs, and we are attracting and 
leveraging other resources to enhance the participation of the 
population in a transparent manner.
    In terms of social services, the health sector is our 
largest priority at the moment, given the violence and in terms 
of preventing a lot of the health-related epidemics we find in 
the Congo. USAID seeks to strengthen primary health care. In 
addition to our continued support to HIV and AIDS programs, we 
also support malaria programs.
    As Chairman Smith mentioned, we support two important 
fistula hospitals which have treated over 1,000 women who 
received repair surgeries in 2010, and we hope to expand the 
outreach of those services. We have also brought together 12 
providers of these services to ensure there is a network that 
they learn and exchange ideas on these issues. And we also 
contributed to the national fistula strategy in the Congo.
    Lastly, in alignment with the Feed the Future Initiative 
that USAID is investing in Africa, promoting the agriculture 
sector as a means of economic growth is a high priority for 
USAID. In Fiscal Year 2010, programs assisted nearly 40,000 
households and more than 500 producers' associations in 
improving agricultural management practices and use of 
technology.
    In conclusion, despite many of the complex challenges to 
development, U.S. foreign assistance is making a difference 
with children being reunited with their families after being 
abducted, trafficked or abused. Low income women are accessing 
the judicial system for the first time and we are encouraging 
the expansion of that program. Health care workers are gaining 
skills necessary both for preventive as well as curative 
measures, and farmers are learning better ways to grow and 
process and distribute their crops. Across many areas where 
foreign assistance is needed we are promoting an approach DRC 
that addresses short-term, medium-term, and long-term 
sustainable development.
    Members of the subcommittee, thank you for your attention 
to development issues in DRC, and I look forward to answering 
your questions and providing additional information.
    [The prepared statement of Ms. Jandhyala follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Thank you very much for your testimony. And 
without objection, both of your full statements will be made a 
part of the record.
    Let me start off by saying that Mr. Affleck in his 
testimony with regards to the elections, and I know, Ms. 
Jandhyala, you made the point as well, says that there is a 
$350 million gap as it relates to the upcoming elections, and I 
would ask you if you could address whether or not you think 
that gap will be bridged and by whom. And in his testimony Mr. 
Affleck says he requests that the U.S. Government take a hard 
look at its current commitment to support the elections and 
asks if offering the assistance needed to truly support a free 
and fair election is actually there. He asks a number of 
questions and he says, the time for decision is upon us. With 
national elections only 8 months away, the U.S. is not focused 
on the Congo.
    How will that gap be bridged, if you could, Mr. Ambassador? 
And secondly, with regard to the conflict minerals strategy, 
which was due in mid-January, is that going to be forthcoming 
soon or perhaps has it been sent up today? If you could give us 
a timeline for that and maybe give us an idea about what will 
be included.
    The issue of army reform remains a very serious issue, and 
I wonder if you could update us on how military reform is 
proceeding. On trafficking, Congo obviously is a Tier III 
country now. It has dropped. In the recommendations made in the 
TIP Report, one of the key recommendations is to investigate 
and punish military and other law enforcement personnel accused 
of unlawfully conscripting child soldiers, and then it goes on 
from there. And I am wondering if you could tell us, because 
obviously this report was issued last year in the beginning of 
summer, whether or not any progress has been made in the area 
of trafficking both for sex and labor and for child soldiering. 
If you could address that.
    On the fistula repair, congratulations and kudos to the 
USAID for the work you are doing on repair. At 1,000, do you 
anticipate that the numbers will go up in terms of actual 
repair of fistulas, and by how many? Do you have a glide slope 
as to how you will build out the capacity for fistula?
    And on the issue of faith-based organizations, we will be 
hearing from Catholic Relief Services in our second panel, and 
they make a very cogent argument as to why faith-based 
organizations are critical in Congo, and I would argue for all 
of sub-Saharan Africa, if we want to mitigate HIV/AIDS, if we 
want to combat all health issues. The estimates are that up to 
70 percent, as you know, of health care in Africa is provided 
by faith-based organizations or churches and seemingly we would 
want to more faithfully utilize that mechanism. And if you 
could speak to whether or not that is where you think we go in 
the future as well as in the present.
    And then on MONUSCO, during my trip part of what caused me 
to go there was the ongoing problem, you know it is bad enough 
that soldiers in the Congolese Army and militia groups are 
committing heinous crimes against women, but to our shock and 
dismay we discovered that the peacekeepers in like manner, but 
in a much smaller number, were committing these kinds of crimes 
against young children. Mr. Payne will remember that I actually 
had three hearings on the abuse by peacekeepers. We heard from 
Jane Holl Lute from the U.N., who was then heading up the 
office. She is now over at Homeland Security as number two. But 
she was emphatic that there needs to be a zero tolerance policy 
vis-a-vis peacekeepers and women and children. At the time we 
were talking about zero compliance, and I know that has 
changed. But we are told that there are some 33 allegations of 
sexual misconduct since January 2010 to February of this year, 
and one of my arguments has been you need investigators to make 
sure that if there is an allegation it is followed up on. There 
are now only two OIOS investigators in Goma, which I think 
enables, however unwittingly, these crimes that are committed. 
So if you could address that as well.
    Ms. Jandhyala. In terms of the elections that are being 
held in November, USAID sees it as part of a broader 
international strategy required to build a coalition on 
democratic transformation in Congo, and we have multiple 
challenges. One is a partner in terms of financial resources. 
We are contributing to a basket fund at the moment, and we are 
working with the European donors to see how that gap can be 
filled and how rapidly it can be filled in the coming months. 
The second issue we are facing is the capacity of the national 
institutions to actually take international support and 
technical assistance with some degree of support from our 
regional organizations.
    So in terms of funding we have contributed $5 million to 
voter education and we are working with our other partners to 
see how we can fill the gap at the moment.
    Mr. Smith. Could I ask during the last elections how much 
we contributed?
    Ms. Jandhyala. I would have to get back to you.
    Mr. Smith. It was significantly higher, I know that.
    Ms. Jandhyala. It was well over, I think, $80 million.
    [The information referred to follows:]

  Written Response Received from Ms. Rajakumari Jandhyala to Question 
     Asked During the Hearing by the Honorable Christopher H. Smith
    USAID provided $12.0 million in support of DRC's 2006 elections.

    Ambassador Yamamoto. Just to follow up on the elections, 
during the 2006 elections I was an observer with the U.S. 
Government observers. And also the Ambassador was Roger Meece, 
who is now head of MONUSCO. And as you know, Mr. Chairman, it 
was a very difficult, it was a very challenging process to 
register and just to identify who the voters are. And we used a 
variety of resources; the Catholic Church, who registered the 
parishioners, faith-based groups who were working throughout 
the area. And so we used very innovative and creative ways to 
do it. And in going to the criticisms of the electoral process, 
we try to make it as transparent as possible in each successive 
election to be better than the last one. And we have a country 
with so many challenges as the DRC. And more importantly is the 
lack of capacity and institutions. Those are challenges that we 
work with our partners and also with the DRC to overcome, in 
order to ensure that these elections are better than the ones 
before and that there is a system of progress.
    I guess we should go to your other questions?
    Mr. Smith. If you could.
    Ambassador Yamamoto. On the conflict minerals legislation 
that has been completed, these should be submitted to the 
Congress. And as you and the Congress have directed, we have 
addressed the issue on Securities and Exchange regulatory 
process. And just to kind of briefly, oversight. On the 
conflict minerals we are really enhancing how to protect those 
areas in conflict, enhance civilian regulation of the resource 
trade, protect artisan miners in local communities, strengthen 
regional and international efforts to monitor and protect 
civilians, and then to promote responsible trader resources.
    And as you know, Mr. Chairman, the DRC is perhaps one of 
the richest countries in the world. It is extraordinary lush, 
it is green, it could be the breadbasket. I want to give you 
one story that, you know we have been talking to other donors 
in other countries who are benefiting from these minerals and 
resources, the Chinese. One thing that the Chinese told us we 
found fascinating. There is more arable land in the Congo than 
all of China, yet China is able to meet the basic needs of a 
population that is 20 times greater than the DRC. Why is that? 
What is it that we need to do more with our Congolese partners 
to ensure that we have a rich country that meets the benefits 
of its people and also the region? And the water productivity 
in that area can fuel energy for half of the African continent. 
And so these are things that are really dramatic and things 
that we are trying to work on, and we are very excited about.
    The other issues, too, that I want to get to is on the TIP 
Report. On the TIP the DRC is classified in Tier III. We have 
of course removed the DRC reluctantly from AGOA benefits. But 
it came after 2 years of consistently asking the DRC Government 
to address certain human rights abuses. And we offered 
assistance and help and support, and we will continue to do so. 
We wanted to see that to the benefit of the people it has to be 
part of AGOA, but it also has to address the needs of its 
people. And those are some of the things that I know you are 
very passionate about, Mr. Chairman, and we have addressed 
those issues.
    The next thing that you address is the efforts of faith-
based groups such as CRS and other groups. You are absolutely 
correct, you know, we provide right now on the continent 
anywhere from $6.4 billion, about $6.8 billion in total 
assistance to the African continent. Of that, 85 percent is 
administered through NGO groups. Most of them are faith-based. 
And what we have learned on the faith-based is that it has 
tremendous accuracy, low overhead cost, and they have very 
creative and innovative approaches. This is a lot of the other 
groups that we have worked with. And we must commend a lot of 
the work that they have done to address some basic problems 
that are facing Africa today. And let me just highlight one 
thing that addresses what my colleague Raja and what we in the 
United States Government is trying to address, is how do you 
address the violence against women.
    And one of the things that we have worked with on the 
faith-based groups is some innovative programs which try to 
elevate the status of women. Without the elevating of status of 
women, to show girls that their moms are really the heroes in 
the family, then we are going to have problems. And one of the 
creative programs that we have is we have community-based 
development, in others we have kids who are going to community 
schools. Then we have moms who we give loans. And we now know 
that women on average will repay loans at a rate of 95 percent, 
much higher than men. And then for the men, looking at 
agricultural techniques and technologies. And then have that 
community strengthen and bonded and sustainable. And what 
happens we have found is that it raises the status of women, 
helps girls' education and expands to other communities. And so 
those are things that we have learned in working with our NGO 
and faith-based groups to expand.
    The next thing is, and I want to turn to Raja, is on the 
FARDC and on the MONUSCO problems. In our approach, our $306 
million area, we are looking at security sector reform. Without 
the security sector reform, you are not going to have a 
security force which is reliable, dependable, and accountable 
to the people. You want forces that are going to protect you, 
not be a problem and a source of crime and violence against the 
people. What we are doing right now on one area is to promote 
accountability through training and prosecution. You need to 
have accountability and to hold people responsible for their 
actions.
    The other issue is advocating demilitarization and 
strengthening payment systems to ensure that the security 
forces are going to be paid. We are looking at mobile banking 
services to ensure that money gets into the accounts so that, 
let's say the commanders are not pilfering the money of their 
NCOs or the other military trainees. The other thing is to 
train police forces to serve as a basis to help protect 
civilians and protect the rights of civilians.
    The other issue is on MONUSCO. As you remember, Mr. 
Chairman, and of course when Congressman Payne was also there, 
we looked at the abuse of MONUC. And at that time the SSRG was 
Ambassador Bill Swain and the Ambassador was Roger Meece. We 
worked extremely hard to look at how we can do training and 
advancement programs. So right now we are looking at our 
programs and projects on how we can advance and promote the 
professionalization within the FARDC troops but also within 
MONUSCO now to ensure that you have the highest quality.
    In that context let me just tell you, in the State 
Department we have over the last decade trained 120,000 troops. 
That is 36 battalions in 24 partner countries. And what they 
are doing now is to address African problems through African 
solutions. Of those 120,000, 77,000 remain in peacekeeping 
operations. We monitor them, we keep track of them. And of 
those, 33,000 are in U.N. operations. And we know that their 
quality is good and that they are attracted and maintain a high 
quality. And that is what we need to do, not only in the DRC, 
but in other parts of Africa where we see instability.
    Ms. Jandhyala. Thank you, Mr. Chairman.
    On the issue regarding trafficking in persons, we are 
approaching it as a human rights issue; and, in that regard, we 
have spent approximately $3 million in anti-trafficking 
projects in DRC, working with UNICEF in Ituri district to 
reintegrate former soldiers, help them put in systems to 
monitor families and communities where this is taking place.
    In addition, we are working with the International 
Organization for Migration to build awareness and capacity in 
the Government of the DRC to stop this and to address the 
issues raised in the Tier III status that they have been given.
    On the issue of fistula repairs, we are finding in our 
assessment of our current activities that, so far, we have 
dealt with repairs as part of the violence generated in the 
war, in the conflict situation. But we think there are also 
fistula issues regarding the domestic violence and frequency of 
birth and the population increases that are happening in 
communities. So we are approaching it both as a treatment for 
gender-based violence as well as domestic violence and sort of 
population issues regarding young girls who are having children 
at a young age as well as the number of children that they are 
having, which is also another reason for the fistula situation 
in the Congo.
    On the issue regarding faith-based organizations and 
working with communities, we believe the fundamental issue of 
community reconciliation has to be done through local 
organizations. Promoting community reconciliation can't be done 
at the state organizations or at the level of national 
institutions. So we are at the moment working with our 
colleagues in OTI and other places in the east to see what 
organizational networks, social networks that exist currently 
and how we tap into those social networks, including churches 
and mosques and other institutions on the ground.
    In terms of elections, that is another challenge we are 
facing. As my colleague Ambassador Yamamoto said, we view this 
as a transformation. How do we set benchmarks for assessing 
progress in that process?
    In 2006, I also was in Congo with Ambassador Swing's office 
at that time and we see that each election is an opportunity 
for us not only to fund the event, the idea of an election, but 
all of the consequences that we would have to deal with on the 
parliamentary level. What institutions do we have to build for 
the next election? So we are managing our resources between the 
immediate event investments as well as what it requires for 
state building and capacity on the parliamentary level.
    We are also preparing for the state-level elections that 
have been postponed to see how we can encourage and revive that 
strategy with the government a little bit more.
    And, lastly, in terms of all of these issues, Mr. Chairman, 
that we are dealing with ungoverned spaces. So development in 
ungoverned spaces means currently we are dealing with the 
consequences of ungoverned spaces. So of the 11 provinces in 
Congo, seven are viewed in the eastern areas which are 
considered sort of ungoverned on many levels. But there are 40 
million other people in the rest of the Congo that we are 
balancing the immediate interventions for conflicts and crises 
but also continuing to invest in the other parts that are 
stable.
    So those are the issues that we are managing at the moment.
    In terms of the budget, Administrator Shah is coming up to 
the Hill next week, and I would leave that to him to talk about 
Congo as part of the broader budget issues.
    Mr. Smith. Thank you. I thank you both.
    Just a note, not a question, I want to thank you for 
including in your written submission some of the very laudatory 
and outstanding accomplishments, especially in the area of 
mitigating maternal mortality. As you point out, we have 
enabled over 351,000 deliveries. And, as we know, the greatest 
way of mitigating maternal mortality is by having a skilled 
birth attendant available to deal with complications, 
especially if a caesarean section might be needed. So that is 
very good news contained in your testimony.
    Mr. Payne.
    Mr. Payne. Thank you very much.
    As has been mentioned, Secretary Clinton visited the 
eastern Congo, and she really was very moved and gave a very 
strong report about what was going on there. I was on that 
trip, although I left before she visited the Congo.
    My assessment, the U.S. needs to refocus all parts of our 
Government on achieving clear results in two critical issues 
which were actually mentioned on her trip. The first priority 
should be to bring greater stability and to reduce civilian 
suffering in the eastern Congo, and the second priority will be 
to ensure next year's elections that will take place will be 
fair and free. So I just wonder if you could just comment very 
quickly on those two.
    I have a series of questions.
    Ambassador Yamamoto. You are absolutely correct, Mr. 
Congressman. Stability is key, and that is really part of our 
security sector reform approach which I just explained in the 
testimony.
    And the other issue is on the elections. Yes, the elections 
are a key indicator for the progress; and, yes, there are going 
to be problems. Yes, there are going to be areas that we need 
greater improvement on; and, yes, there will be questions on 
it. But as long as we can continue to make the progress and 
development we have since 2006, we should be in good shape as 
we head to the next elections as well.
    Ms. Jandhyala. In terms of the elections, after USAID's 
experience in Sudan recently and the enormous international 
lift that it took to make the referendum happen, I think we are 
working toward what institutions we can lay the groundwork for 
now as we set the tone for both the subnational elections that 
we hope will take place. And I think it is a commitment to the 
democratic transformation of Congo. It is a critical element of 
our aid strategy at the moment.
    Mr. Payne. And you didn't have the dollar amount that we 
contributed to the 2006 elections and what is in the budget for 
the 2011 elections.
    Ms. Jandhyala. Right. The 2006, I can come back to you with 
that. I am sorry about that.
    [The information referred to follows:]

  Written Response Received from Ms. Rajakumari Jandhyala to Question 
       Asked During the Hearing by the Honorable Donald M. Payne
    USAID provided $12.0 million in support of DRC's 2006 elections.

    Ms. Jandhyala. On the 2011, it is part of the budget 
discussions that Administrator Shah would like to talk with as 
part of the overall DG budgets we are looking for within the 
agency, both for Africa and for the agency.
    Mr. Payne. Because, of course, we can almost guarantee 
failure if we do not supply the appropriate--it was daunting at 
the last election, which I attended, also. And simply the 
logistics of getting ballots to remote places, you had to use 
helicopters; and I was thankful, as I mentioned, that South 
Africa was able to bring in aircraft to deliver ballots and 
then pick them up after the election. Congo was so important.
    And we could almost, like I say, guarantee a failure if we 
don't have the proper amount of--which, of course, comes to the 
Congress. You all don't appropriate. That is something that we 
need to perhaps have a discussion with us on this side of 
Washington.
    Could you give me a definition of the difference between 
MONUC and MONUSCO? It tends to get gray sometimes.
    So would anyone want to try to take a shot at that? I don't 
want either one of you to jump at it, but----
    Ambassador Yamamoto. The issue was--the progress between 
MONUC and MONUSCO was on the mandate. In other words, to 
articulate exactly what the precise mandate would be for the 
U.N. operation. And one of the things that was additional or 
added to that was, in what circumstances will these forces 
address, you know, the FDLR, the LRA process? And one of the 
additions to the MONUSCO mandate was looking much more at the 
LRA problem.
    But I would have to go back to you and refer to other 
experts who know the precise technical and legal distinction 
between the two.
    [The information referred to follows:]

Written Response Received from Mr. Donald Y. Yamamoto to Question Asked 
          During the Hearing by the Honorable Donald M. Payne

    Following the signing of the Lusaka Ceasefire Agreement in July 
1999 between the Democratic Republic of the Congo (DRC) and five 
regional states, the UN Security Council established the United Nations 
Organization Mission in the Democratic Republic of the Congo (MONUC) by 
its resolution 1279 of November 30, 1999. MONUC initially observed the 
ceasefire and disengagement of forces and maintained liaison with all 
parties to the Ceasefire Agreement. Later, in a series of resolutions, 
the Council expanded the mandate of MONUC to the supervision of the 
implementation of the Ceasefire Agreement and assigned multiple related 
additional tasks. In accordance with the Security Council's May 28, 
2010 resolution 1925, MONUC was renamed the United Nations Organization 
Stabilization Mission in the Democratic Republic of the Congo (MONUSCO) 
to reflect the transformation of MONUSCO into a stabilization force. 
UNSC resolution 1925 also permitted a reduction of up to 2,000 of the 
Mission's 19,815 uniformed personnel in areas where security has 
improved. The MONUSCO mandate emphasizes civilian protection.

    Mr. Payne. Initially, they were criticized--I guess it was 
early on--about their lack of aggressiveness in their Chapter 7 
mandate. There had been a reaffirmation of Chapter 7. Is there 
a more aggressive stance on a part of the forces?
    Ambassador Yamamoto. The problem with the definitions is 
this ability to respond. I know that Roger Meece has requested 
more air assets, in other words, to address the ability to 
rapidly deploy his troops to areas of instability. And he gave 
the example of ecoterror, where you had disarmed groups coming 
in and taking over the airport temporarily, killing some of the 
U.N. peacekeepers as well as civilians.
    But those are some of the major challenges that are facing 
MONUSCO today. It is not only the budget but also the capacity 
to respond quickly.
    Ms. Jandhyala. We have also made a commitment. We have 
reinforced our message with the U.N. agencies that we are 
committed to a peacekeeping mission, and we wouldn't be able to 
do a lot of our work without the environment being created by 
the peacekeeping mission in the east at the moment. And we have 
made that message clear to the Government of the Democratic 
Republic of the Congo who have come around to establishing a 
better relationship and improving their relationship with the 
peacekeeping mission.
    Mr. Payne. And about the FDLR, initially, they were very 
involved with the government in Kinshasa. However, there seemed 
to be a position where the Kabila government have been working 
toward the infiltration of the FDLR. In other words, the 
agreement between Rwanda and the DRC, is there an effort? At 
one time, it seemed FDLR were even a part of the Congolese 
forces. Has all of that changed? And is the--into harm's way--
and the ex-FAR that still roam around the eastern Congo, is 
that still a problem?
    Ambassador Yamamoto. Yes, Mr. Congressman. The FDLR, you 
know, remains a continued issue. From our tripartite-plus 
process to today, we continue to work with the Rwandan groups 
as well as the Congolese, because the FDLR is a threat to both 
countries and to the regional stability and also to the 
violence against the civilians and really is a major block and 
obstacle to peace and stability in the region. So that 
continues to be a top priority.
    Mr. Payne. I had a chance to speak to Mr. Meece earlier in 
regard to even the CNDP. Now Nkunda is under house arrest in 
Rwanda. Has that therefore lessened the tension there in the 
area or are his forces still roaming and doing destructive 
work?
    Ambassador Yamamoto. No. Nkunda's detention or house arrest 
in Rwanda is one area, but you still have continued members of 
the FDLR who continue to roam, and then you also have other 
high-profile individuals who are creating havoc. And one of 
them, of course, is Bosco Ntaganda, who is an ICC-indicted war 
criminal and part of the groups. As you know, he fought with 
Kabila's forces, and he is extremely well armed. So that 
remains a problem.
    Ms. Jandhyala. And, also, I think one of the issues we are 
facing with the FDLR in terms of community development and 
reconciliation issues is that command and control is not clear 
on different parts of the east, of where they have impact and 
where they don't in terms of command and control. So I think 
both the bilateral agreement between Rwanda and Congo gives one 
framework, but I think we will have to work as an international 
community at many levels both at the political level but also 
within communities who have reached out under the DDR program 
and other reconciliation efforts to see how we can minimize the 
damage that they do to the communities.
    Mr. Payne. Okay. My time has just about expired, but I just 
wonder, what is the prospect of a special envoy being 
appointed? We wrote a letter back several months ago asking 
that a special envoy be considered once again. Mr. Swing was 
very effective. And what is the status now?
    Ambassador Yamamoto. We are continuing to take that under 
advisement. After the departure of Howard Wolpe last year, we 
will continue to do the work that he has started through our 
ambassadors and through Johnnie Carson who has made trips as 
well as the Secretary and other senior officials.
    But, again, depending on the budget and other objectives, 
et cetera, we continue to take that under advisement, Mr. 
Congressman.
    Mr. Payne. Thank you very much.
    Mr. Smith. Thank you, Mr. Ranking Member.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Thank you again for coming, and thank you for your 
testimony.
    The United States is constantly called upon to clean up 
messes throughout the world. And now that is a testament to the 
generosity of the American people as well as to the 
philosophical ideals that guide us and perhaps as well our 
unique position as an exceptional world power. But, with that 
said, what is the relative nature of our assistance compared to 
European assistance, particularly France and Belgium, given the 
colonial legacy here?
    Ms. Jandhyala. In terms of the United States, we are still 
the largest donor in terms of our support in bilateral 
assistance, but our support through the peacekeeping agencies, 
in terms of our support through the U.N., service agencies like 
UNICEF; and we continue to lead on this.
    It depends also on certain sectors where our European 
partners have taken the lead in terms of the security sector 
where the EU is in the lead. But in other areas and other 
sectors we continue to lead in regards to this.
    Mr. Fortenberry. Do you feel this is disproportionate in 
terms of the responsibility?
    Ms. Jandhyala. We are working with our partners to 
continuously find ways, because we partner with them on a 
number of other countries that are a priority for the U.S. 
Government. So it is a balancing act between Congo, Sudan, 
Liberia, and many other countries. So we are in constant 
discussions with our British partners, our Norwegian partners, 
the EU, the World Bank, both on the bilateral to see where we 
bring our relative expertise, we lead, and where they bring 
their relative expertise and political will. So it is a 
constant negotiation between us and our partners.
    Mr. Fortenberry. All right. The second question--and 
perhaps, Mr. Ambassador, you could answer this. It is against 
the law in the United States to provide military assistance to 
countries who use child soldiers. Now we have exceptions for 
that in terms of national security waivers, and this country 
has received one. But, with that said, that doesn't absolve our 
responsibility from continuing to push at the highest possible 
diplomatic levels to end this pernicious practice. What 
specifically is being done in this regard?
    Ambassador Yamamoto. You know, overall, on the child 
soldiers, it is not just in the Congo but it is throughout the 
continent and, of course, around the world as we establish on 
our GTIP rankings and address--to work with these countries to 
address those problems and to ensure that they understand those 
problems and that they address them and that we work together 
to find the solution.
    And throughout Africa and other parts of Africa, from Chad 
and to other countries where there are reports of child 
soldiers, we have worked with those troops that we have helped, 
let's say, train not only on vetting but to ensure that they 
observe all the precepts and legal aspects that we have under 
our laws in distribution of funding and assistance.
    In the Congo area, it remains a challenge, but we remain 
committed to ensuring and to working hard so that the 
battalions that we train and also those that we work with are 
meeting the legal notes established by you in the Congress on 
the distribution of the assistance.
    Mr. Fortenberry. That perhaps is certainly an appropriate 
response for those areas that are under our direct influence, 
such as military assistance, direct military assistance and 
training. But in terms of a robust diplomatic push at the 
highest levels, what are we doing?
    Ambassador Yamamoto. Right now, we are working with the 
FARDC troops, which is a major challenge, to work on military 
justice and also to ensure that they develop the justice 
systems to bring to justice those individuals who are in 
violation, not only those who have violated the law in 
participation in rape and human rights abuse but also those who 
have conscripted and trained child soldiers. That becomes an 
accountability issue under the judicial and legal system that 
we are trying to develop within the DRC, and that is something 
that our USAID colleague is working on. And our part is working 
to ensure the professionalization of the military as well as 
the police to follow up and to work with the communities and 
sectors so that these abuses do not occur. But, again, it is 
going to be a long-term process, but we are making those 
efforts.
    Mr. Smith. The gentleman's time has expired.
    Mr. Fortenberry. Thank you.
    Mr. Smith. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman; and congratulations 
again on your chairmanship and leadership of this subcommittee.
    It is great to be here with the ranking member, Mr. Payne. 
We notice a slight New Jersey tilt to the leadership here, but 
we do appreciate you being here and really bringing attention 
to this topic today.
    I just wanted to say a personal welcome to Ambassador 
Yamamoto for his leadership and for the time we spent with him 
in Ethiopia and for the great work that you did there.
    This topic is very timely in terms of assessing our 
effectiveness and the international community's efforts to 
address these challenges from ethnic conflict, government 
corruption, extreme poverty, and widespread human rights 
abuses. And, in particular, the sexual and gender-based 
violence against women and children here on this day I think it 
is especially important being International Women's Day.
    Also, we have heard many talk about the high risk of 
relapse there. When there was a concerted effort around the 
elections in 2006, many believe that we mistakenly scaled down 
our efforts there in terms of democracy assistance and 
political engagement. So certainly as we lead up to this next 
national election, I think it is important that we have a 
robust international engagement there.
    I have seen some statistics with regard to there being over 
14,000 new cases of sexual violence reported in the DRC, 
including thousands of child victims. And my question is, how 
is USAID and its bilateral assistance working to specifically 
address the needs of children in the eastern Congo? And how is 
the U.S. assisting UNICEF in their efforts to address these 
challenges?
    And I would like to start with Ambassador Yamamoto.
    Ambassador Yamamoto. Thank you, sir.
    We continue to look at--you know, when I was traveling 
throughout the DRC before my Ambassadorship to Ethiopia and now 
here--is the issue of the high rate of violence not only 
against women but civilian areas and the high rate of death. 
You are talking anywhere from 800 to 1,100 deaths from violence 
each and every day in the Congo. It is unacceptable and 
prohibitively high.
    What we tried to do through our budgeting and assistance--
and not only us but also in coordination with our donor 
community and with other groups--is to look at how we can 
address the needs of the communities to ensure not only 
security sector reforms but also to look at how we can bring 
strength and dynamism to these communities to protect 
themselves against the violence. And that encourages not only 
security sector reforms to address the training of forces but 
also on the other side on the justice system to hold people 
accountable and that they go through a course in procedures and 
processes.
    I want to turn to my colleague, Raja, who can kind of go 
into the details on the programs that we have implemented.
    Mr. Carnahan. Thank you.
    Ms. Jandhyala. In terms of the sexual- and gender-based 
violence, we work on three levels. One is, survivors have 
access to critical care and treatment and that both women and 
children come through our service providers. Second is to 
expand the current--we have got 5,000 local service providers 
that we want to expand, the number of those providers that 
provide services to children. And then, lastly, we deal with 
250 local organizations to deal with psychological counseling 
and treatment.
    And in terms of UNICEF, we have worked with them in Ituri 
in eastern Congo on protection, on medical services, on 
psychosocial services; and about 1,000 children have gone 
through all three of them. They come in in waves, and we 
support UNICEF and fund them for these services throughout 
eastern Congo, and they then use those services to deal with 
the community. Issues of women and children--at least in the 
USAID portfolio--we deal with in terms of reconciliation at the 
community level, livelihoods. We have youth issues. A large 
part of it is youth. And then we also deal with them through 
health care and then local administration issues.
    So we kind of view it as a cross-cutting issue, where we 
have opportunities to support women and children. It should be 
something that goes across all of our interventions in addition 
to the targeted interventions we provide for specific 
treatments.
    Mr. Carnahan. Thank you.
    Mr. Smith. Thank you.
    Ms. Bass.
    Ms. Bass. Both of you have made several references to the 
upcoming elections. And I just wanted to ask you, if you could, 
to specifically talk about what specific steps you think the 
United States could or should take immediately and in the 
upcoming months to assist in helping to prevent a fraudulent 
election. If there is hope that it could be done in a way--
given the decision that was made to revise the constitution in 
January to reduce the number of election rounds from two to 
one, is there hope that it could be viewed legitimately?
    And then what contingency plans are the U.S. and 
international community discussing should violence occur? I 
know it is not an automatic that because they made that 
constitutional change that it is going to be viewed 
fraudulently, but----
    Ambassador Yamamoto. Very important on the violence is, 
obviously, the MONUSCO plays a critical role as far as on the 
security but also on the electoral processes. In 2006, they 
were very key in getting the ballots out and bringing the 
ballots back. Right now, USAID has provided $5 million for 
training, voter registration, and voter education, which 
remains key, and also to continue to reach out through 
educational processes to bring in as many of the people who are 
eligible to vote, to vote, to be a participant in the electoral 
process.
    The other issue, too, is on the ballot counting as well. 
What we have done is to ensure that all the opposition groups 
do have members at the areas where the ballots are being 
counted.
    We have met very rigorously with all the opposition leaders 
who are potential candidates for the presidency as well as many 
of the local candidates--on the Presidential level, that is 
Mobutu and Kamerhe, the former speaker, the parliamentary 
speaker, as well as President Kabila himself--and to understand 
and not only to have a dialogue among all the groups and 
parties but to work out systems and mechanisms and measures to 
work together to ensure that the ballot counting and the vote, 
there is a process in place which can be lived by and lived 
with by all the parties who are contesting the election.
    Ms. Jandhyala. USAID looks at this in terms of what 
institutions are critical to ensure that it is transparent, 
limits fraud and really addresses the systemic changes that we 
need to do. So we are providing technical assistance to the 
independent elections commission in the country. We are working 
with the Parliament to ensure that whatever elections 
legislation that is coming through is viewed through a critical 
eye; and, lastly, working with provincial administration at 
local levels to see how they can participate in this elections 
process to prevent it.
    The other critical element for us is the population. How do 
we get the population involved in ensuring that the fraud 
doesn't take place? How do they get information out there? How 
do we educate voters so they report on the instances where they 
do find weaknesses in the process as it goes? And lastly is we 
were in discussions with the other donors about elections 
observation teams from the international community and how to 
organize that in the coming months so that we, as an 
international partnership, are able to provide some views on 
what is going on in this process.
    Mr. Smith. Thank you, Ms. Bass.
    Mr. McDermott.
    Mr. McDermott. Thank you, Mr. Chairman.
    I just have a question for both of you. To what extent do 
you think the legislation that Senator Durbin and I got into 
the bill in terms of conflict mineral is actually going to have 
a positive effect in reducing the amount of money available to 
the rebels to carry on the chaos that has gone on in Kivu for 
the last 5, 6, 7 years?
    Ambassador Yamamoto. Well, Mr. Congressman, we worked very 
closely with your staff members on that legislation. And let me 
say that that has remained a key aspect in our dealings with 
the DRC since the last several years and not only monitoring 
the conflict minerals but also tracking it and also how it is 
being utilized and denying those illegal traders from 
benefiting from those conflict minerals.
    What I think the legislation does is strengthen and support 
what we have been doing over the last several years which is 
to--the people and the civilians, in areas where you have 
tungsten, titanium, and timber, have them benefit from the 
resources that are being mined. And I think that legislation 
helps us in this regard, and it strengthened those communities.
    And then the other issue, too, is to hold not only traders 
but also smelters and end users accountable to ensure that 
those moneys and funds will benefit the people as well as those 
who are trading.
    Ms. Jandhyala. I think the impact of the legislation has 
been that the due diligence that the companies are taking, are 
taking this seriously. We see a lot of companies that we are 
working with the government to say, How do we establish a due 
diligence in this regard?
    The second area of impact is our ability to have them look 
at it as part of a broader extractive framework, that we are 
providing technical assistance.
    And largely at the community level, again, is what role do 
they play in monitoring and tracking? And, in that regard, we 
have invested in infrastructure to access these remote sites; 
and by preventing people from traveling in between these sites 
they have been able to keep this process going. So we are also 
investing in rural infrastructure to access these areas where 
we think that there is a high instance of trafficking in 
conflict minerals.
    Mr. McDermott. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. McDermott.
    I would like to thank our distinguished panel for your 
testimony. I would just echo the words of my good friend, the 
ranking member, Mr. Payne, both he and I strongly hope that you 
will consider a special envoy or a special representative.
    Mr. Affleck makes a very strong and impassioned appeal for 
that in his testimony. I hope you stick around to hear it.
    And Mr. Prendergast does the same. As a matter of fact, he 
even says, why is U.S. policy failing and what could be done 
about it? And that is one of his chief recommendations.
    So the sooner the better. Please name that special envoy so 
we have a truly coordinated strategy.
    I would like to now welcome our next panel, panel number 
two, beginning with Mr. Ben Affleck, who is the founder of the 
Eastern Congo Initiative in addition to a successful career as 
an actor, writer, and director. Mr. Affleck is also a 
passionate advocate and philanthropist.
    In March 2010, he founded the Eastern Congo Initiative, or 
ECI, an advocacy and grant-making initiative with the mission 
of helping the Congolese people support local, community-based 
approaches that create a sustainable and successful society in 
the long-troubled region. ECI is the first U.S.-based advocacy 
and grant-making initiative wholly focused on working with and 
for the people of eastern Congo.
    Since 2007, Mr. Affleck has made multiple trips to Africa, 
with a focus on eastern Congo. He is focused on understanding 
the causes and consequences of conflict on the continent and 
learning about African solutions to the problems affecting the 
DRC.
    We will then hear from Ms. Francisca Vigaud-Walsh, who is 
with Catholic Relief Services as a sexual and gender-based 
violence advisor, spearheading the effort to incorporate SGBV 
prevention and response into CRS programming in conflict and 
disaster-affected communities worldwide.
    Ms. Vigaud-Walsh has nearly a decade of refugee camp 
management and protection experience with the U.N. and various 
NGOs, working with displaced communities in the Balkans, Latin 
America, and Africa, and has spent a considerable amount of 
time in eastern Congo helping CRS and its local partners design 
effective responses to psychosocial, medical, and economic 
needs of survivors of sexual violence.
    We will also then hear from Mr. John Prendergast, who is a 
human rights activist and best-selling author who has worked 
for peace in Africa for over 25 years. He is co-founder of The 
Enough Project, an initiative to end genocide and crimes 
against humanity affiliated with the Center for American 
Progress.
    Mr. Prendergast has worked with the White House under 
President Clinton, the State Department, two Members of 
Congress, the National Intelligence Council, UNICEF, Human 
Rights Watch, the International Crisis Group, and the U.S. 
Institute of Peace. He has authored or co-authored 10 books and 
has appeared on numerous TV programs and, as I said earlier, 
has been here frequently before this subcommittee.
    And I also would like to, if she would like to come to the 
witness table, Cindy McCain who, as I said earlier, has been a 
leader on issues dealing with health care for Africa, including 
the American Voluntary Medical Team, leading several medical 
missions to developing and war-torn nations. She is the wife of 
the distinguished Senator from Arizona, John McCain, but she 
has also worked with CARE, Operation Smile, and the landmine 
removal group, the HALO Trust.
    Mr. Affleck, if you would proceed.

   STATEMENT OF MR. BEN AFFLECK, ACTOR, WRITER, DIRECTOR, & 
                            ADVOCATE

    Mr. Affleck. Thank you very much. I am very excited about 
this. It is a great honor. So thank you all very much for 
including me today.
    Mr. Chairman, Mr. Ranking Member, and members of the 
subcommittee, my name is Ben Affleck. I am founder of the 
Eastern Congo Initiative. ECI is the only U.S.-based grant-
making and advocacy organization entirely focused on working 
with and for the people of eastern Congo, an area that carries 
the unwanted distinction of being the deadliest and most 
volatile region of the country and one of the deadliest in the 
world.
    According to the United Nations, the crisis in eastern 
Congo has displaced an estimated 1.7 million Congolese and has 
led to over 1,000 rapes being committed every month. The 
International Rescue Committee estimates that 5.4 million 
people have lost their lives in the conflict since 1998. Many 
of these deaths were children under the age of 5. Not all were 
killed in combat but rather perished from the ravages that 
accompany this horrific region: Malaria, pneumonia, 
malnutrition, and diarrhea.
    ECI invests in Congolese efforts that help protect the most 
vulnerable among the population in the Congo, including child 
soldiers and survivors of sexual violence. ECI works closely 
with community based groups focused on education, economic 
opportunity, capacity building, and legal reform. I thank you 
for your attention to Congo and for holding this important 
hearing. On behalf of ECI, I would like to submit a complete 
written statement for the record.
    Today's hearing occurs on the 100th anniversary of 
International Women's Day, which I also think is important to 
recognize; and I think it is particularly appropriate to call 
attention to the particular suffering of women and girls in 
eastern Congo as well as the undeniable strength they exhibit 
in the face of ongoing atrocities.
    I am also pleased to recognize Cindy McCain, who is with us 
here today and who recently joined ECI as a founding member and 
investor. Cindy and I just returned from eastern Congo where we 
saw firsthand the tragedy and triumph of the Congolese people.
    While large parts of eastern Congo remain under the control 
of armed groups, there are many reasons--most of them rooted in 
the strength and fortitude of their people--to be hopeful about 
Congo's future.
    I want to share with you the story of a remarkable woman 
named Laba Kamana, who exemplifies the potential of the 
Congolese people to transform themselves and their society. 
Laba was captured by rebel soldiers at the age of 14 in South 
Kivu and held as a sex slave for over 2 years. She was raped 
virtually every day by her captors until she found her freedom 
through the thick jungle in what makes up the second-largest 
rainforest in the world. She discovered she was pregnant with 
the child of one of her rapists.
    The counselors of a remarkable Congolese organization 
called Let Africa Live found Laba. They took her in. They 
provided her with counseling and job training. And while caring 
for her new daughter she used her skills to start a small 
business and earn enough income to return to school.
    Laba is now 22 years old. I met her. She is wonderful. She 
is in her third year of studying law, and she advocates the 
rights of women using her own story.
    Since my first visit to Congo more than 5 years ago, I have 
witnessed remarkable efforts to improve governance, promote 
economic growth, and reduce conflict. Unfortunately, despite 
some positive movement, the record over these last 5 years is 
not promising. Congo risks heading into another deeper spiral 
of violence that could lead to more fighting and suffering and 
could risk destabilizing surrounding African countries.
    In 2006, millions of Congolese voted for the first time in 
a free and fair democratic election. Voting in more than 50,000 
polling places around the country, the Congolese people elected 
Joseph Kabila as President. It was a period of great excitement 
and high hopes; and the United States, indeed, testified to by 
some of the other panelists, played a very important role.
    Starting in 2007, the U.S., along with others in the West, 
drew back involvement. Instead of continuing a high level of 
engagement to consolidate a new and fragile democracy, Congo 
was treated as if it was a well-functioning state from which 
the United Nations' mission in Congo could be safely withdrawn. 
This notion was quickly dispelled when rebels waged a new 
battle against the government in eastern Congo in 2007 and 2008 
that brought another terrible round of death, displacement, and 
destruction.
    Our Government has a long history of involvement in the 
Congo, from our shameful role in the murder of Patrice Lumumba 
and three decades' support of Mobutu to some very admirable 
recent efforts. In the early 2000s, the United States 
Government helped to bring to the table various forces then 
fighting in Congo. The U.S. Government also provided key early 
funding for the 2006 elections and played a major role in 
helping peace and development return to the Congo. Of this, 
there is no question.
    In the past few years, Secretary of State Hillary Clinton, 
as also testified to by Ambassador Yamamoto, visited the 
region; and USAID has escalated its efforts in eastern Congo. 
Also, USAID has provided millions of dollars in humanitarian 
assistance to the Congo since the mid-1990s.
    This commitment has indeed paid dividends in Congo, but 
with conflict persisting and elections coming up, we must 
develop a cohesive strategy and be fully engaged on this issue. 
Today, with national elections only 8 months away, on November 
27, the U.S. is not focused on Congo, even with events like 
last week's attack on the President's residence in Kinshasa. 
That, paired with Congo's recent history, should remind 
everybody of the fragility of the Congo's progress and 
stability.
    The United States Government can and should play an active 
role in ensuring this November's elections are free and fair. 
An electoral outcome that is questioned could easily perpetuate 
another downward spiral, division, and rupture. The last time 
Congo collapsed, armies came in from across Africa. And as I 
said before, 5 million people died. Five million people have 
died since 1998 because of the conflict in eastern Congo. We 
must learn from history and do our part to see that this never 
happens again.
    In this time of heightened concern over Federal spending, 
some suggest that austerity demands we turn a blind eye to the 
crisis in Congo. I believe nothing could be more misguided. It 
would simply be penny wise and pound foolish to allow the Congo 
to again fall into a state of crisis or further humanitarian 
chaos.
    If Congo were to collapse again, as members of this 
subcommittee know full well, the United States would respond 
generously with humanitarian assistance. We would try to save 
lives. But we have to do better. Our goal must be to avert a 
humanitarian disaster by proactive investment and stronger 
diplomacy.
    The path to stability in today's Congo requires fostering 
stable elections and preventing another disaster that could 
easily require hundreds of millions of dollars in assistance. I 
humbly suggest that the U.S. Government take a hard look at its 
current commitment and find a way to do more. Come November, we 
must be able to look ourselves in the eye and say that we did 
what our principles demanded. We helped democracy emerge in a 
place where tragedy is the alternative.
    In November, 2010, the Eastern Congo Initiative released a 
white paper--here it is--``Strengthening United States Foreign 
Policy in the Democratic Republic of the Congo.'' You do titles 
differently in DC than we do back home. This paper, 
commissioned and reviewed by experts, encourages steps the U.S. 
should take to promote progress in the Congo.
    I would like a summary of the paper to be included in the 
record.
    Mr. Smith. Without objection, so ordered.
    Mr. Affleck. Thank you. I have included a more detailed 
explanation of the steps we believe are necessary in the 
written testimony.
    One, the U.S. Government must do more to support a 
multidimensional strategy to protect civilians--women, girls, 
boys, and men--from the onslaught of violence in eastern Congo.
    Two, the U.S. Government must do more to support the 2011 
elections, which we have heard about already a little bit 
today. In addition to providing diplomatic support, the U.S. 
should support robust election monitoring by Congolese civil 
society and by credible international organizations.
    Three, to ensure that the United States steps up to the 
serious challenges to stability in Africa posed by the Congo, 
the President or the Secretary of State should appoint a 
special representative to the Great Lakes region of central 
Africa. The appointment should occur as soon as possible in 
order to coordinate the U.S. response to the challenges in the 
Congo.
    We also believe that the treatment of conflict minerals, 
demobilization, and security sector reform, as well as the 
Lord's Resistance Army, are a serious concern and deserve a 
comprehensive approach and cohesive strategy.
    This is an ambitious agenda, but it can be accomplished.
    In December, 2005, then-Senator Obama introduced a bill 
called the Democratic Republic of Congo Relief, Security, and 
Democracy Promotion Act of 2006. This bill had a bipartisan 
list of Senate cosponsors, including then-Senator Hillary 
Clinton. On December 6, 2006, it was passed by the House by 
voice vote. On December 22, 2006, President Bush signed the 
bill into law. The majority of our recommendations are found in 
this very law. They simply need to be implemented.
    Thank you, Mr. Chairman, for your very strong support of 
this important legislation. We place special emphasis on full 
diplomatic support for the upcoming elections and the 
reappointment of a Great Lakes special advisor in the State 
Department. This special advisor would serve as a point of 
accountability and an important and necessary coordinating 
function. Maybe most relevant in these tough economic times, 
this appointment would inevitably ensure efficiencies are found 
across multiple investments and diplomatic efforts.
    We strongly believe that if we continue to place Congo on 
the back burner of U.S. policy it will indeed come back to 
haunt us. The Federal budget may indeed be a zero-sum game, but 
our morality, our sense of decency, our compassion for our 
fellow human beings is not. Recognizing one tragedy need not 
diminish understanding and empathy for another.
    Our basic humanity, our sense of compassion is not a fixed 
number. It expands with our vision. It can grow with our 
purpose. But our moral compass is fixed. Our sunrise, our east 
as a Nation, even when we have failed, has always pointed us 
toward what is right. Now, not what is easy, not what is cheap, 
but what we can live with and how we can sleep with ourselves 
at night.
    The values we hold true are priceless to us. They are the 
soul of our Nation. They are rooted in our Constitution, our 
Bill of Rights, our Declaration of Independence. We believe in 
being free from the tyranny of violence. We believe in life and 
liberty, and we believe that basic human rights are not just 
important, are not just something to be worked toward but a 
fundamental right to be demanded for all mankind.
    These ideas make us who we are. They make us great. But if 
our foreign policy does not reflect these ideals, it completely 
undermines them.
    I have seen firsthand the determination and the promise of 
the Congolese people. I hope you will consider visiting eastern 
Congo to learn and see what I have. Any of you are welcome to 
come with me.
    The Congolese people simply want to live their lives in 
peace, earn a decent living, and raise their families, just 
like the rest of us. They want a voice in their country's 
governance.
    I will never give in to the naysayers who suggest Congo is 
hopeless or too complex. It is not. The 70 million people of 
Congo deserve a better tomorrow, and Eastern Congo Initiative 
will do our small part to ensure that it does. It is in the 
interest of all of us here to support the people of the Congo, 
move forward toward democracy and respect for human rights, and 
to move away from the multiple crises and horrors of the last 
15 years.
    Thank you very much. It really is an honor to be here, and 
I am happy to expand on any of these points to answer your 
questions.
    [The prepared statement of Mr. Affleck follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Smith. Mr. Affleck, thank you so very much for your 
very eloquent and passionate statement; I do hope that the 
White House and the Capitol, the Congress, is listening to your 
strong appeal. The Congo cannot be on the back burner of U.S. 
foreign policy. I think--as Mr. Payne and I have been very 
clear, I think every member of our panel, we strongly want that 
special envoy, that special representative yesterday. And so 
your appeal today, I think could be a pivoting point for the 
administration to say, Now do it. Time is running out. So thank 
you so very much.
    I would like to now introduce Ms. Vigaud-Walsh and thank 
you for your testimony.

  STATEMENT OF MS. FRANCISCA VIGAUD-WALSH, SEXUAL AND GENDER-
        BASED VIOLENCE ADVISOR, CATHOLIC RELIEF SERVICES

    Ms. Vigaud-Walsh. Mr. Chairman, I would like to submit my 
written statement for the record, and I will briefly summarize.
    Mr. Smith. Without objection, so ordered.
    Ms. Vigaud-Walsh. Thank you, Chairman Smith, for calling 
this very important hearing today and for giving Catholic 
Relief Services the opportunity to testify. I would also like 
to thank the ranking member, Mr. Payne.
    Mr. Smith, I know how passionate you are about advocating 
for the survivors of sexual- and gender-based violence in the 
Congo. And, Mr. Payne, I know that your interest in the region 
has led you to travel to the Congo several times, even dating 
back to when it was still called Zaire.
    Let me also thank Mr. McDermott for his role as one of the 
original authors of the Congo Conflict Minerals provision that 
recently became law. This provision will help to curb sexual 
violence in the Congo.
    This morning in Bukavu, over 180,000 women marched in the 
streets advocating for their own rights, today being their day, 
International Women's Day. They marched behind a banner that 
stated, we can stop violence against women. And they chanted 
slogans that included two key demands, the first being impunity 
for rapists must cease, and the second being that women must be 
included in all the political processes.
    As the sexual- and gender-based violence advisor for 
Catholic Relief Services, I focus a lot of my efforts on the 
Congo just because of the sheer magnitude of the problem there; 
and in this capacity I have had the privilege of working for 
and with some of the women that marched this morning.
    In eastern Congo, today is a cry for women to no longer be 
used as a battleground, and here it is a call for us to even 
make greater efforts to help them. CRS, which has been working 
in the DRC since 1961, partners with the local Catholic Church 
to address the scourge of sexual violence. The Church has an 
extensive network throughout the most remote networks of the 
country. This network allows us to reach the most isolated of 
rape survivors.
    Also, in the absence of an effective and functioning 
government administration, the Catholic Church has provided 
most of the basic services, such as health care and education 
for decades. It has thus gained the trust of the population.
    In eastern Congo, I have repeatedly come across rape 
survivors who have walked many kilometers from their 
displacement camps to seek support at the nearest parish. The 
fear of stigmatization by their fellow camp dwellers, coupled 
with the trust in the Church, drives them to seek assistance 
there.
    Together, we have implemented numerous activities to 
respond to this crisis. We have provided access to life-
changing fistula repair surgeries, psychosocial training for 
counselors, and trauma healing for thousands of survivors in 
four provinces, income-generating and entrepreneurial skills 
for at least 1,500 rape survivors, community training to 
mobilize military, police, and traditional justice leaders and, 
most recently, an innovative, community-based early warning and 
protection project in three provinces.
    The funding for these projects do come from a variety of 
sources, but the great majority of it comes from the United 
States Government. This partnership between the United States 
Government, CRS, and the Church in Congo extends the reach and 
magnifies the impact of U.S. Government assistance into remote 
areas with needy, vulnerable populations that could not be 
reached otherwise.
    It is critically important that the U.S. Government 
maintain and expand the support for the essential responses I 
have just described as well as preserving and strengthening its 
partnership with the Church and other faith-based 
organizations. If the DRC is to have a future, the hundreds of 
thousands of women who have been raped must continue to be able 
to access these services; and even within the context of scarce 
resources today, the U.S. can and should do more to combat the 
conditions that foster the use of rape as a weapon of war.
    I would like to make these additional recommendations: One, 
the U.S. must use its leverage as a donor and as a partner to 
press the Congolese Government to fulfill its security mandate, 
uphold human rights, and genuinely work to protect its 
civilians. The Congolese Government has requested more military 
support recently, such as the training of more battalions. The 
U.S. Government has to link the support to measurable changes 
in key areas.
    Two, the U.S. should condition its assistance on progress 
against impunity and survivor access to justice. As long as 
ranking military officers who condone and perpetrate rape roam 
free or as long as civilians accused of rape can continue to 
pay the equivalent of 5 U.S. dollars for a get-out-of-jail 
card, sexual violence will persist.
    Three, the U.S. Government should urge the Congolese 
Government to uphold its previous commitments to include women 
in the political and peace processes. They should be respected 
and included and prepared for elections.
    Indeed, violence against women in the DRC is symptomatic of 
women's second-class status and marginalization from decision 
making. Women have been consistently excluded from previous 
peace processes and continue to be sidelined from political 
power.
    One of the women who led in the march in Bukavu this 
morning is the director of the Diocesan Office for Women's 
Issues. When I telephoned her yesterday to tell her about this 
hearing, she was ecstatic, because she knows the political 
leverage the United States Government has with the Congolese 
Government. She drafted a declaration alongside her 
counterparts in the Muslim and Protestant communities and urged 
me to make these recommendations.
    Ultimately, in order to eradicate sexual- and gender-based 
violence in the DRC, we need to stop the wider, more 
generalized conflict. The United States Government needs to 
more urgently engage diplomatically. The United States 
Government can lead the process that will end the fighting and 
increase women's participation in the political sphere.
    The magnitude of the seemingly never-ending humanitarian 
crisis and the potential for the fragile situation to get even 
worse demands a proportionate response. At this critical 
juncture, with elections coming, the United States Government 
must rise to the task, as it did in the Sudan; and as long as 
violence persists the U.S. must continue to support the 
lifesaving partnership with faith-based institutions in the 
DRC.
    Thank you.
    [The prepared statement of Ms. Vigaud-Walsh follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Ms. Vigaud-Walsh, thank you so very much; and 
thank you for the absolutely encouraging news about the 180,000 
women marching. That is just incredible.
    Hopefully, in a small way, this hearing and the follow-up 
that we will do, it is all ongoing, but I think this is an 
important venue to say, Now is the time for the administration 
to do much more, and that goes for us as well. So thank you for 
that wonderful news.
    Mr. Prendergast.

   STATEMENT OF MR. JOHN PRENDERGAST, CO-FOUNDER, THE ENOUGH 
                            PROJECT

    Mr. Prendergast. Thank you, Chairman Smith and Ranking 
Member Payne, for your ongoing commitment to Congo and human 
rights throughout Africa.
    I would like to ask that my testimony be submitted into the 
record and to People magazine--a hat tip to Mr. Affleck.
    I would also like to set aside my written testimony to say 
a few things this afternoon about this unique moment that the 
Congo is facing.
    While women from marching in Congo in Bukavu this morning, 
the 180,000, two of my colleagues from Enough were in Goma this 
morning and talked with one of the leading women's rights 
advocates in the country, Justine Masika, who everyone probably 
on this panel knows and some of you know and Secretary Clinton 
met when she was in Congo in 2009.
    For this hearing, Justine wanted to say the following: 
``The link between conflict minerals and mass rape here in 
Congo is crystal clear. So the first and foremost priority for 
ending the war here in Congo is to set up a system to regulate 
the minerals trade.'' And the upcoming election, she said, ``is 
the critical window to push the Government of Congo on this 
issue since it will try harder to please the population before 
the vote.''
    Now I was in Congo twice in the last 6 months, and I would 
strongly concur with Justine's assessment that this is an 
unparalleled moment of opportunity to make real changes in 
Congo. The election is the primary internal factor, no 
question. But the U.S. Congress' conflict minerals legislation, 
spearheaded by Congressman McDermott, is the primary external 
factor; and it has created a moment full of uncertainties and 
anxieties but also of huge opportunities in the country.
    Now before we get to these opportunities, I wanted to make 
one commercial time-out on why we focus so much on the 
economics of Congo's war. Of course, we believe the conflict 
there is about more than conflict minerals, but let's take a 
look at the broader agenda and how it is compromised by the 
Mafia-like economy there.
    Now everyone wants to reform, for example, the military. 
However, the military officer corps is the primary beneficiary 
of mining in the country. President Kabila stays in power by 
allowing these officers free reign to make as much money as 
they can and cratering the rule of law throughout the eastern 
third of the country.
    Number two, everyone wants to reform the justice system, of 
course. However, the military and civilian beneficiaries in 
government of this conflict minerals trade do not want a 
strong, efficient government. The rule of law will subvert this 
illegal economy, and the money now going into their pockets 
will go to the Treasury. And that is simply unacceptable to 
this Mafia.
    The third thing I want to bring up is everyone, of course, 
wants to stop the FDLR and the other militias. However, they 
sustain themselves through mineral profits and everyone knows 
that and they often trade increasingly with the military 
itself, the Congolese military.
    Fourth, everyone wants clean elections. However, who in 
power would give up this gravy train? You lose, and you are 
out. It is winner take all. They can't take that chance, and 
they will fix it.
    Everyone supports peace agreements, no question. However, 
even the peace deals in Congo can make matters worse if we 
don't deal with the economic fuel for war. One-and-a-half 
million Congolese people have been displaced since Presidents 
Kagame and Kabila signed their agreement 1\1/2\ years ago. That 
is a tragic record.
    Back to the people of Congo. Ryan Gosling and I went there 
over Thanksgiving. We met an extraordinary Congolese woman 
named Marie. Marie is a rape survivor twice over, and she has 
overcome her own trauma to found a women's organization that 
helps other women who survive sexual crimes.
    We asked her what she recommends, and she said the 
following: ``Please stop this bloody business. You are fueling 
conflict. Families are being torn apart, women are being raped, 
communities are being destroyed so armed groups can profit from 
the mines. Companies should stop supporting this and do ethical 
business.''
    Well, the good news is that because of the congressional 
legislation, because of your legislation, every one of you 
champion this, companies have to start trying now to do this 
ethical business. And some companies are already moving ahead 
even beyond what the legislation is requiring them to do. But 
they need help from the United States Government. And the key, 
I believe, as it has been on so many critical foreign policy 
issues in Africa, the key is the United States Congress. Two 
critical processes are coming to fruition now that this 
subcommittee and the wider Congress can influence.
    First, the Securities and Exchange Commission is going to 
issue very soon implementing regulations for your conflict 
minerals legislation. We need to ensure that these regulations 
have serious teeth and do not delay the implementation of the 
bill. We have a letter that we are releasing today from 
Congolese Civil Society Organizations making this very point, 
that we cannot countenance a delay in the implementation of the 
bill. Strong regulations will send a major signal to the actors 
in the supply chain that foment violence, that subvert the rule 
of law, that undermine good governance, that they have to clean 
up their act.
    The second major opportunity we have now is that the 
conflict minerals legislation as it was discussed requires the 
executive branch to develop a strategy for dealing with 
conflict minerals and ending the violence. That is a first the 
executive branch hasn't been required by Congress to have a 
strategy to actually end this thing. We have always wanted to 
deal with the symptoms. The bill says, how are you going to end 
it? Well, that strategy was due over a month ago, but it is 
still being debated inside the administration. That is a good 
thing. That means you can have influence over what the Obama 
administration comes out with. This is a huge opportunity for 
the United States to make a critical difference in the Congo.
    We think Secretary Clinton should lead in putting together 
a stakeholders meeting that involves the regional governments, 
with the Congo at the center, the companies that matter, the 
United States and the European Union, all together to launch a 
process that would result in an international certification 
system to end the conflict minerals trade in central Africa. 
And we need a senior envoy to help spearhead this and all the 
other efforts that my fellow panelists and you have all spoken 
about and written to the administration about so passionately 
in the country and throughout the region.
    U.S. leadership has helped do this with diamonds. We have 
done it with forestry. We have done it with fisheries. We have 
done it with a number of other products where, when the United 
States helped lead in bringing the companies and governments in 
question together, standards were changed, and this positively 
has impacted the lives of millions and millions of people. 
Well, now it is Congo's turn.
    So if we act on the deadly minerals trade, it is not a 
magic wand, but it is a catalyst, and it is a domino that will 
help topple the edifice of greed and militarization that kills 
and rapes people in Congo at a higher rate than anywhere else 
in the world. Thank you for your leadership.
    [The prepared statement of Mr. Prendergast follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Smith. Mr. Prendergast, thank you so very much for your 
passion and for your insights and counsel which you have 
provided to this subcommittee and in Congress for many years. 
Thank you so much. As previously discussed and agreed by my 
friend Mr. Payne, the ranking member, and I, I would ask 
unanimous consent to welcome Ms. Cindy McCain to speak and 
participate as a witness on this panel, even though we had not 
prior noticed it.

         STATEMENT OF MRS. CINDY MCCAIN, PHILANTHROPIST

    Mrs. McCain. Thank you, Mr. Chairman.
    I don't intended to take long at all. But I would like to 
thank you and the committee members for taking your time in 
hearing what we have to say with regards to such a critical 
issue that is facing our world.
    My first trip to the Congo was in 1994 during the Rwandan 
genocide. And so my history with Congo is dicey at best. But 
what I have learned through these years is that what is most 
important are organizations just like this, particularly 
organizations like ECI that go in and take not only a strong 
look at what is going on but become active on a community-based 
level. These NGOs, organizations like this are the most 
important for what we are doing, but we can't do it alone. We 
are here today to ask all of you, and I know some of you in 
this room right now have been to Congo and have taken an active 
interest in Congo, to please come. But most importantly, we are 
depending on your voice to spread the word.
    We are going to lose a generation of women and children in 
Congo unless we do something now. I am only a humanitarian 
relief worker. That is the only thing I have ever done. It is 
the only thing I know with regards to this region. But I also 
know what is right. And we can't leave behind these women and 
children. So we rely on you when we talk to you today with 
great hope that you will lead this charge and not forget about 
these wonderful human beings in a rich culture that has so much 
to offer to this world.
    I leave it to the experts to tell you today what is most 
important, but I would hope that you would ask those people who 
are on the ground to not only help you but for you to let them 
know that you are behind them and most importantly to let the 
women and children know that they are not forgotten.
    I particularly want to thank Ben Affleck for allowing me to 
be a part of this today and for allowing me to be a part of 
ECI. We are strange political bedfellows. We are the odd couple 
perhaps in politics. But that is the beauty of this, because 
this transcends political parties.
    So thank you so much for what you are doing. Most 
importantly, thank you for listening to what they have to say. 
And thank you for many, many NGO workers that are on the ground 
that need your help. Thank you.
    Mr. Smith. Ms. McCain, the thank goes to you and to the 
three other distinguished witnesses for leading and leading so 
well by pouring yourselves into these humanitarian efforts. I 
would like to ask Mr. Affleck, I know that you have been to 
HEAL Africa and that ECI actually aids them. Could you just 
provide some additional insights into the work of HEAL Africa 
and other like-minded NGOs and hospitals that you have 
supported?
    Mr. Affleck. Sure. Unfortunately, there are not very many 
hospitals in that part of the country. We were initially 
attracted to them because, of course, they are Congolese-run 
and based, and that is the kind of organization that we want to 
be supporting. Sometimes we support grass roots organizations 
that don't have that level of infrastructure and high level 
education. But these people are--they are a Congolese-run 
hospital that started out very small, primarily of course doing 
fistula repair, because the need for fistulas was so urgent 
there. And they have grown. They have grown because of their 
skill, their talent, what they are providing and who is doing 
the work. And it is one of the few that actually has attracted 
a decent amount of attention from people. And they provide just 
top level--I mean, obviously, there is emergency care.
    I visited them and met soldiers who were recovering from 
gunshot wounds. One guy showed me that he had his wallet in his 
pocket, and he had been in the war. He took the wallet out and 
the bullet had gone into his pocket and hit the wallet and 
saved his life. He had some other wounds that he was being 
treated for, but they were on the front lines of the war, and 
they are on the front lines of building the peace. And I don't 
know what people would do without this kind of hospital there. 
And they are receiving more. We are working with them, and 
others are as well, and they are really pretty exceptional.
    The other, of course, a really well known hospital is Panzi 
Hospital that Dr. Mukwege works at, which is in Bukavu in South 
Kivu, and he also is just doing exceptional work. He is the guy 
who is himself personally, early on, doing 10 fistula surgeries 
a day at the height of this epidemic. And it still goes on, but 
he doesn't have to do all the surgeries. Then they started 
training other doctors and became sustainable. And those two 
organizations are spectacular.
    There are many others that we are working with. Part of 
what we try to do at ECI is to recalibrate people's perceptions 
about Africa and about who is doing what. If people go, oh, we 
were going to throw money down there, it is money down a rat 
hole; it is not the case at all. Really, in our experience, 
people who are doing it and solving these problems, maybe it 
was Congressman Payne who was talking about this earlier, it is 
Congolese solving Congolese problems. And that is what is so 
inspiring to me. And both those hospitals are really emblematic 
of that. And I have other stories, but I will spare you.
    Mr. Smith. In your testimony, you, and Mr. Prendergast in 
his, make a very strong appeal for the special envoy.
    And Mr. Prendergast, you actually point out that Howard 
Wolpe, who used to be chairman of the subcommittee years back, 
actually had his capability diminished, his resources and 
influence cut at a time when, of course he has been ill 
recently, but even when he had the position. It seems to me 
that the message we need to send to the White House, because 
they need to do this, like I said before, yesterday, is to name 
that special envoy and properly resource that individual.
    If you both, and perhaps any of you who would like to speak 
to that issue, it seems to me that we don't have a point person 
who can in a rapid way with the ear of the President and the 
Secretary of State, you know a phone call away, this window of 
opportunity, as one of you said in your testimony, could 
quickly evaporate.
    Mr. Payne and I were talking about this in between 
testimonies, you know $5 million expended so far on the 
election. Last time it was about $80 million, and when the 
administration testifies that there is a $350 million gap, that 
may doom this election unless quick corrective action is taken. 
And the special envoy would have that ability to say, you know, 
``We are going to make this happen.'' So if you could speak to 
that.
    Mr. Affleck. I will just give a quick answer and then John 
can go into the nuance policy detail stuff. There is a lot 
going on. We have heard other people talking about what the 
U.S. Government is doing, what other folks are doing. A big 
part of this is about synthesizing all this stuff, of taking 
all these strands. And as many of you know working in the 
private sector, you can have a lot of people doing stuff and 
maybe doing their jobs well, but if they are not working 
together and they don't know what the other hand is doing, 
frankly, you just have a lot of waste. So we have got resources 
dedicated that are now being frittered away because they are 
not working collectively; they are not working cohesively. You 
know, somebody is supposed to be doing elections. Somebody is 
supposed to be doing gender-based violence. There are people 
designated to liaise with regional governments, like Burundi, 
Rwanda, Uganda and others. But without somebody sort of taking 
a lead and being able to do that kind of shuttle diplomacy 
where they move across those folks, it just really isn't going 
to be successful.
    In fact, we are under utilizing what we are already 
deploying in effect. And I have talked about the stakes a 
little bit, and I will let John.
    Mr. Prendergast. Just a footnote. What Ben is saying there 
is, when I worked at the White House and the State Department, 
I just found it to be endlessly frustrating because so much 
issues and countries were stovepiped and kept in their 
categories. And what a special envoy--and you got--you know, in 
Central Africa, you have got cross border issues; you have got 
multiple issues that bring equities in from all kinds of 
different departments throughout the U.S. Government. So you 
need someone to be able to break through this stovepiping. And 
it can't be a Deputy Assistant Secretary of State who gets 
dual-hatted to be doing something else besides their regular 
job, which is 20 hours a day anyway, with the beeper going off 
every 30 minutes in the other 4 hours. You just got to have 
someone whose full-time job is focused. And it is someone with 
influence, someone who can pick up the phone and say, Secretary 
Clinton, it is actually time for you to say or do something 
now, and someone who can actually move the system, move the 
needle away from the inertia that just pervades government.
    You know, this is just where it is. People are well 
meaning, but the system is systemically tilted toward the 
status quo. To be able to move that needle away from the status 
quo toward action, that is what you need a special envoy for. 
And you should collectively, civil society and the legislative 
branch, press the executive branch to do this as soon as 
possible. We know President Obama moved on the special envoy in 
Sudan because of George Clooney. Maybe he will move it in Congo 
because of Ben.
    Mr. Affleck. Well, I don't think it will have much to do 
with me. But from what I have heard, and we spent a lot of time 
asking people around this town, I know that if we had the 
support of Ambassador Yamamoto and Assistant Secretary Carson, 
we would go a long way. So I urge, Yamamoto, you are still 
here, and Carson, wherever you are, help us out. This can be a 
collective effort and I know we can get there.
    Mr. Smith. Thank you.
    And I couldn't agree more. Ms. Vigaud-Walsh, in your 
testimony, you reference a CRS project that aims to prevent 
sexual violence against women by sensitizing communities and 
mobilizing local leaders, that is done through training 
transitional justice leaders, military and police officials who 
then become community sensitization leaders. Can you tell us 
how successful that program has been?
    And secondly, and Mrs. McCain, you might want to speak to 
this as well, the issue of microcredit financing is huge in 
Africa. And dollar for dollar, I can't think of a better way of 
helping to empower women, especially because most of those 
grants or loans, I should say, go to women. And with a small 
amount of money, someone can not only get gainfully employed, 
but they end up hiring four, five, six people in many cases. 
For those women who have been so sexually abused and 
traumatized, do you find that microcredit financing and job 
skills training helps them mend, not only helping to provide 
for themselves and perhaps their families, but also is part of 
the healing process?
    Ms. Vigaud-Walsh. Thank you, Chairman.
    With regards to our project with the Catholic Church, we 
train traditional justice leaders. The program is critical, and 
it is very effective, because we have to step back for a moment 
and look at the context. We are talking about a country where 
there is no rule of law. The justice system is in shambles. So 
there is nothing but traditional leadership in justice. So the 
fact of the matter is we are working in communities where the 
view of justice still is embedded in cultural ideas that are 
attached to the stigma, how to overcome the stigma or how to 
reduce stigma.
    And what I mean by that is a girl that is perhaps as young 
as 14 years old, in order to avoid that stigma, she is forced 
to marry her rapist. And that is the traditional justice 
system.
    So we have been working with hundreds and hundreds of 
justice leaders, traditional justice leaders, in order to work 
with them on making their policies, shall we say, more gender-
sensitive and more sensitive to the needs and protection of the 
women and girls. That is on the first point.
    And with regards to the microcredit financing, absolutely, 
absolutely critical. And I am glad that you noted that it is 
part of the healing process, in fact. Through our savings and 
lending schemes, we have helped rape survivors that had been 
ostracized from their communities and, therefore, lost their 
breadwinners once their husbands abandoned them. And one 
particular case that I am thinking of right now, she was 
actually able to save the equivalent of $600--U.S. dollars--to 
build her own house. This is a woman who would have been living 
in the street, quite literally, after having been ostracized by 
her community.
    Those kinds of programs work so much on the self-esteem. 
And the self-esteem after rape is so critical to being able to 
move on and to be able to remake one's life, even in the face 
of having been ostracized by the community. So these programs 
are critical, and I strongly suggest that they continue to be 
supported. And I do thank the U.S. Government for all the 
support that we have received for these programs thus far. 
Thank you.
    Mr. Smith. Mrs. McCain, did you want to comment?
    Mrs. McCain. The only thing I would add to that, you are 
exactly right. Microfinancing is, in my opinion, key to this. 
So are free and fair elections. And unless we can do both, we 
are never going to have a society of women that will have any 
kind of rights at all. So that would be the only thing I would 
add to that.
    Mr. Smith. Thank you.
    Mr. Payne.
    Mr. Payne. Well, let me certainly thank all of you for your 
testimony. And I think that the interest of all of you in this 
issue really assists us in Congress to try to highlight the 
problems without people like you, Mrs. McCain and Mr. Affleck, 
and of course Prendergast is the agitator behind all of this 
stuff, and of course the work that Catholic Relief Services 
does. We probably would have a difficult time filling the room, 
probably only have a third of it covered. So I think that 
people don't realize the importance of people in your 
categories that you can bring attention to issues. And I think 
it is important.
    Once we get the attention, we know what to do, you know, 
Congressman Smith and myself and the other Members of Congress. 
But you do help us highlight the problems. And I really, once 
again, thank you all for your interest in these issues.
    It seems, and it is very clear, that we definitely need to 
have a special envoy. I recall--maybe, John, you were a 
member--when we went with President Clinton to Africa. And 
during our time there, we just simply had a meeting of the 
Great Lakes Region Presidents, I mean because so much is 
interrelated. Uganda was arguing a little bit with Burundi. You 
had Rwanda looking over at what was happening in Zimbabwe. It 
is so interrelated that a special envoy, not only should deal 
with the problems of the Congo but to be able to coordinate.
    As a matter of fact, Uganda was the recipient of a 
terrorist attack because Uganda was assisting in Somalia with 
their troops to protect the government of Sheikh Sharif Sheikh 
Ahmed and the transitional Federal Government. And without 
Ugandan troops there, the situation would be much worse. Well, 
that is all connected that at the World Cup game, Uganda 
suffered the loss of 20-some of their citizens by Al-Shabaab 
planting a bomb as people were simply watching the World Cup 
because they were Ugandan troops helping in Somalia.
    So it is so all connected that it seems it would certainly 
make a lot of sense that we do have an envoy, especially to 
deal with the DRC, but also to have the surrounding countries 
there involved. And the fact that so many--and the tragedy of 
the Congo, as I mentioned earlier, with King Leopold and how 
the country was just devastated, and then once they decided to 
move forward, the conspiracy of the West to come together and 
have Patrice Lumumba murdered, that was really--and I am glad, 
Mr. Affleck, that we can't forget the past. We don't need to 
dwell on it, but if we know the past, we know why we are in 
positions we are in. In Congo, with the leadership of Lumumba 
and those who were emerging at that time could have had a total 
difference on the way the Congo is today. But by us propping up 
Mobutu, who raped the country for decades and decades, we find 
ourselves now struggling again to try to get democracy moving 
and trying to get this whole question of rape, which should be 
despised by society, but it is something that people sort of 
shrug their shoulders and say, well, that happens.
    So I really, like I say, I really commend you for your 
efforts.
    I know Ms. Vigaud-Walsh, you all work with child soldiers. 
And I know that perhaps some of the abusers who are involved in 
rape now were probably child soldiers before. And so I wonder 
what your organization is doing as it relates to child soldiers 
in the DRC.
    Ms. Vigaud-Walsh. To illustrate what we are doing with 
child soldiers, I can speak of a program we had in North Kivu 
in partnership with the Caritas Goma and Caritas Rome, as well. 
We were supporting centers through which demobilized children--
or children were transported to after being demobilized, 
providing a trauma healing therapy, working with them to 
prepare them for reintegration back into society.
    The problem is that clearly these kinds of services aren't 
enough. The number of children that were needing DDR services a 
few years ago was much, much greater than the funding, level of 
funding that we had. Thank you.
    Mr. Payne. Thank you.
    Mr. Affleck, maybe you and Mr. Prendergast might be able to 
deal with the question, what do you see us needing on the 
ground in order to make these elections work?
    Mr. Affleck. Well, first of all, I want to go back to an 
earlier question that I don't think I answered, that the 
difference between MONUC and MONUSCO is two letters which stand 
for stabilization and organization, the idea being that it has 
got an expanded mandate for, well, stabilization, among other 
things. And you know Meece, who replaced Alan Doss, seems to be 
doing a fine job. He is an American, and people are optimistic, 
and there have been some appreciative changes.
    Now that entity plays a real role, obviously, in elections. 
As you know, you were there, they played an instrumental part 
in elections last time. What I hear from people in this 
environment is, well, the second election is always harder. It 
is the one fewer people want to pay attention to. It is the one 
that can either cement democracy, or it can all fall backward 
and become unwound. We need to have monitors. We need to have, 
like I said, internationally credited monitors. We are hoping 
the Carter Center will up the ante a little bit on what they 
are willing to do. I think the IRI is going to come in. I think 
NDI will then follow.
    But we also need a fully committed effort, and frankly, we 
need to maintain that piece of stability. You asked about the 
FDLR and CNDP to sort of more fully address that. Where we are 
right now is that, yes, because when Nkunda got taken away by 
the Rwandese the CNDP folded up into the FARDC. However, they 
cut a deal with Bosco Ntaganda, so Bosco is now kind of the de 
facto leader of the CNDP inside the FARDC, which creates a kind 
of tension, and it is one that has to be managed by MONUSCO 
because if you arrest him, you may create a lot of problems, 
and you may go back to the war that you had before. It is 
tricky.
    When we were there recently, right after we flew out, the 
airport was the scene of a huge shooting and chase, and Bosco 
had brought in gold. They had brought in a bunch of gold that 
they were smuggling, and there was a big police chase up there. 
So this is a guy acting with a lot of impunity and creating a 
lot of instability. And the Kamane RDF FARDC efforts to go 
after the FDLR, on the flip side, which I think represented, to 
get to your question, a further break between the FDLR and the 
FARDC and Kamane and those guys, who really were kind of on his 
side during the war, but it got stopped a bit because the FDLR 
were smart, and they knew if there were enough civilian 
casualties, that they would leave, and then come back and kill 
a lot of civilians, and they knew that that would stamp down 
enthusiasm for further military actions. The Rwandese of course 
left.
    These intractable thorny issues need to be solved as well 
as the other practical electoral stuff, vis-a-vis the 
elections. So you have a lot of logistical stuff that needs 
support. You need people there saying this is how we should do 
it. You need MONUSCO flying people around; you need MONUSCO 
fully dedicated. And it also needs increased diplomatic 
involvement and engagement to help to continue to--and this is 
a place where the U.S. has done a lot of really good work, you 
know Tim Shortly at the State Department, who was over there 
several years ago and working closely within Nkunda and the 
peace accords and such, that we need to continue to push that 
toward peace. Because any of these guys, the Boscos and so on, 
that if those situations flare up, it could easily trigger 
further instability in elections. That was more than you wanted 
to hear.
    Mr. Payne. You are pretty up on this stuff. You are very 
impressive.
    J.P.
    Mr. Prendergast. The only thing I would add there--and that 
was indeed a great answer.
    Mr. Affleck. Thank you. I paid him to say that.
    Mr. Prendergast. But I would add to just actually highlight 
the diplomatic effort that you just spoke of as part and parcel 
the larger thing and put a little meat on those bones and say 
what you need, of course, as we do in other countries that 
matter to the United States, is you create these unified 
coordination mechanisms. Call them donor coordination, call 
them diplomatic coordinators. They then craft multilateral 
carrots and sticks related to electoral benchmarks. And you 
deploy them early enough that they can actually influence the 
process as it unfolds. Because, of course, anyone who wants to 
steal an election is watching to see what the world will do. 
And if the world does nothing but put out a little press 
release saying, bad, you know, slap on the wrist, of course, 
they are going to go ahead because of the reasons we have 
talked about for so long. The money, the gravy train will be 
lost if you lose the election. So we need that multilateral 
unified voice of the governments that have influence to develop 
the carrots and sticks, create the watchdog actions that will 
blow whistles when there are problems and do it early enough, 
create this thing early enough so you are not just waiting 
until the day of the vote to say, Wait a minute, there is 
something wrong here, but we can actually watch and see how it 
unfolds. We will know months in advance whether this is going 
to be a credible election. And if the answer is no, then we can 
deploy and say, wait a minute, we are not going to support 
this; you are going to have to change it for anyone to take 
this seriously. And then it is up to the Congolese Government 
to develop their own calculation about whether or not they want 
to reform it. So I think that is what we really--that is one of 
the elements of many, as Ben said, that we need to be engaged 
in to try to make a difference here.
    Mr. Payne. Thank you.
    I guess my time is just about expired. I won't ask you Mrs. 
McCain about elections. I just want to say that elections are 
so important.
    I just want to remind the chairman that we have the problem 
in Cote d'Ivoire, where the President who lost the elections 
just decided I am not going to leave. I mean, this is 
unbelievable with everyone saying, AU, ECOWAS, ICAD, the EU, 
U.S., saying you lost, you should step out. So I think that we 
really have to keep the pressure on Gbagbo to step down. And if 
we could move that legislation forward to have the Congress on 
record with the rest of the world saying, get out, because if 
he stays in, it is going to be a bad example for all of these 
other elections. There are about a dozen elections coming up in 
Africa this year. And if this is the principle, where you lose 
and you stay and you say, well, I am not leaving, then we are 
going to be in a world of trouble in these elections coming up, 
including the Congo. So, once again, thank you all for your 
testimony.
    Mr. Smith. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    A question for you, Mr. Affleck and Mrs. McCain. I am 
curious, how did you choose the eastern Congo as a focus of 
your passion and interest? The reason I say that is because 
those of us who sit on this committee and others where global 
human rights is a concern and a deep interest and essential, 
the insults to humanity, the effrontery that comes across our 
desk daily in so many places throughout the world can almost 
just be exhausting. So I am curious, how did you choose this 
particular area?
    Mr. Affleck. I came to it, I won't go into my own personal 
journey, because that may be inappropriate for this, but I 
think really for me it was--frankly, it was reading. I was 
looking at some other stuff, trying to cast around looking at 
advocacy, and I came across this. Well, of course it pales in 
comparison with the millions of deaths in eastern Congo, and I 
was, on the one hand, shocked and, on the other hand, really 
ashamed. How could I not have known this? You know, I read the 
newspaper and yet I had no idea. And so I thought, well, maybe 
this is a place where I can at least show up, I don't know 
what.
    And I started studying, and I started learning. I took a 
couple of years. I didn't want to be, you know, kind of a 
celebrity dilettante sort of person that doesn't know what they 
are talking about and irritates everyone, because I thought 
that wouldn't help any.
    Mr. Fortenberry. Well, that is very impolitic of you to say 
but very well received, I should say as well.
    Mr. Affleck. So I really did a lot of studying--Whitney 
Williams, who is here, was instrumental in helping me do that--
and met with a lot of learned experts, John foremost among 
them. And when I ultimately got to a place where I wanted to--I 
wanted to build an organization because I kind of identified 
the best people I thought were doing the best work, the people 
who had some skin in the game, who were living in the community 
every day, who knew people, who knew the militia, who knew who 
the children were. I talked to people who were taking kids 
out--child soldiers out of the militias. And they would go to 
them and address them kind of personally and bargain; look, at 
least you don't need him, well, give me her, and then while 
that was happening, already found a place for the child to live 
in the village rather than an institutional home and the like. 
And I thought, gosh, this is what happens when something bad 
happens in your community and you are dealing with it because 
you know the people.
    And I got struck and I wanted to help empower those folks 
because of course they had no money. And so we started raising 
money. And I also thought nothing changes without advocacy, 
without powerful people making up their minds, people like you. 
And the idea to ultimately sit here and address you is a real 
thrill for me. And then I wanted to surround myself with kind 
of smart, thoughtful philanthropists and people who got it. And 
everybody who knows something about this knows how long Mrs. 
McCain has been involved. She said she was in Goma in 1994. 
That is a big deal. And since then, doing a lot of work. And so 
I gave her a call and hoped she wouldn't think it was a prank 
call.
    Mr. Fortenberry. Well, clearly, your investment, time and 
passion is very genuine, and I think it is going to give 
continuity to this effort, and I am grateful.
    Mrs. McCain, did you want to add anything.
    Mrs. McCain. Other than to say everything is always a 
personal journey. And my story is no different. I won't go into 
it.
    But what I will say is that from my own personal well 
being, Africa has haunted me in a good way. It has kept me 
coming back, because I see such hope there. I see such 
possibilities. And I know that, with the help of people like 
Mr. Affleck and others around the world, that we can make a 
difference. And so it is nothing more than a personal journey 
for me as well. But it is one that has kept me coming back. And 
I love it there, and I would rather not be any place else.
    Mr. Fortenberry. Thank you as well for your time and 
passion on it. I did want to raise a couple of quick issues in 
the limited time I have left.
    Mr. Prendergast, you had made a correlation between the 
pervasiveness of a culture of rape and the conflict regarding 
minerals. It is unclear to me what that direct correlation is. 
If you could spend 20 seconds unpacking that please.
    Mr. Prendergast. Actually, it says 40 here.
    Mr. Fortenberry. I have another question though.
    Mr. Prendergast. We didn't need a laugh line right before 
talking about this because it is so crushingly serious.
    What basically our assessment is, is that these militia 
group, armed groups on the ground, including the government 
army, we always talk about rebels; ``rebels'' is militias both 
from Rwanda and Congo and the government army. They have used 
the tactic of rape as a weapon to----
    Mr. Fortenberry. I don't think this point is very clear. 
And I appreciate you saying there is a correlation there, but 
go ahead.
    Mr. Prendergast. To use rape as a tactic of war in order to 
intimidate local communities to go along with the kind of mafia 
economy that we are talking about all day today. I mean, in 
Sierra Leone, they used the amputations to terrorize civilian 
populations. People use what works.
    And if there is no consequence, if impunity reigns, then 
why not this? And so there are many other factors involved.
    I think you are wanting to say something in there. Can I 
yield some of my time?
    Mr. Fortenberry. Yes, please.
    Ms. Vigaud-Walsh. Just to clarify that also a bit more. It 
is a displacement mechanism. It moves people out of the areas 
where these resources are so they can move in and take control 
of the mines.
    Mr. Fortenberry. So this is not just some act of depravity 
that happens in ungoverned spaces? It is deliberate. It is 
intentional for larger geopolitical purposes.
    Ms. Vigaud-Walsh. It is a strategy, absolutely.
    Mr. Affleck. It is both. It is all of those things. What 
happens is these tactics create an environment where it seems 
like anything goes. But I do absolutely concur, at least from 
what I have seen from these two folks is that it is about armed 
groups saying we are going to go after this area and this is 
how we are going to attack them. And then it becomes kind a 
horrible reality where it is acceptable.
    Mr. Fortenberry. I called it a culture of rape. I don't 
know if that is the right description.
    Mr. Prendergast. I don't think it is actually because the 
vast majority of Congolese are absolutely devastated by what 
has happened to their country.
    Mr. Fortenberry. That is why it becomes a powerful weapon.
    Mr. Prendergast. Yes.
    Mr. Fortenberry. Thank you.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Thank you for your last comment about that.
    But let me just start by thanking all of you for the work 
that you do, and in particular, Mr. Affleck, for using your 
celebrity in this manner, because it is extremely powerful, and 
it is, as the chairman and ranking member said, one of the 
reasons this issue has received so much attention.
    And the same to you, Mrs. McCain.
    I wanted to reference some comments that Mr. Prendergast, 
when you described the deadly mineral trade and the mafia 
economy, I think you described it very well. But I wanted to 
know, in your opinion, what about the political leadership, is 
it there? I mean, there is an election that is getting ready to 
happen in November. Is there legitimate--we talked about the 
elections being legitimate. You know, maybe they will be; maybe 
they won't. But my question is, is there legitimate political 
leadership to be elected?
    Mr. Prendergast. Well, just in 30 seconds, you know, we 
have this country, which for 125, 150 years has been just 
pillaged by the international community for--going back to the 
turn of the century, the last century, ivory and rubber to help 
our jewelry industry and our auto industry, and then uranium 
from the Congo was critical in our atomic bombs and Hiroshima 
and Nagasaki, and now cell phones, laptops and all the other 
things that we use every day are fueled. And what happens is 
you create a system where, a political system that basically is 
designed to maximize private gain and crater the public sector 
because the public sector, the rule of law, would undermine 
this.
    So you have internal collaborators with this international 
system, but it is a system that benefits us. We have cheap 
phones. We have cheap computers. We had nuclear weapons that 
worked. We had piano keys and all the rest of it at the turn of 
the century with the ivory. So, in other words, this has gone 
on for so long; it is hard to say suddenly, oh, we are going to 
turn this around with one election. It is a system in which the 
termites have absolutely devastated the political foundation of 
the country. And until you address that economic foundation, I 
don't think it--it is just changing chairs on the Titanic, on 
the deck of the Titanic with these electoral processes. 
Terribly important to invest in, but you got to do both the 
political and economic at the same time to make a difference.
    Ms. Bass. I wanted to ask another question, too. This is 
about AFRICOM. The question is, the United States African 
Command or AFRICOM has been engaging in pilot training of one 
battalion focusing on human rights, and unit cohesion 
conditions in AFRICOM is controversial. So my question is, 
should the U.S. expand on this project to address other 
security needs?
    And then I guess just in reference to what you were saying 
before, you know, I remember 20, 30 years ago, when there were 
liberation movements in the various countries, and we can talk 
about how all those turned out, but there were independence and 
liberation movements. And I don't think you have described one 
in the Congo.
    Mr. Prendergast. Do you want to also say something on this, 
Ben? Jump in if you want. No, I am saying if you want to say 
something when I am done.
    The military forum issue I think is--I mean, I think ECI, 
if you look at their recommendations, if you look at what the 
Enough Project and others that have worked on this stuff, 
military forum, security sector reform is at the top of 
anyone's list of what we need to invest. And now you go to the 
Congo and you spend time with the Congolese leadership, and 
what militaries do they respect, you know, it is not a 
surprise, the United States military. So when the U.S. comes in 
and says, we are going to train a battalion in Kisangani, this 
makes a difference to them. People are bumping each other out 
of line to sign up to be part of this. So the United States has 
influence; it has leverage on this one.
    And here is one where if we work more aggressively--and 
this is why you need a special envoy, because we don't have 
enough diplomatic firepower with the existing system to be able 
to do this kind of full-time work, is to get the donors 
together that actually do military training like China, like 
South Africa, like Angola, the countries that actually have 
influence with the Congolese Government, we work together with 
them about a systemic reform of the military, and then AFRICOM 
becomes a major player in all of that.
    And specifically I want to highlight one element of the 
larger security sector reform, and that is military justice. 
Again, we have a comparative advantage there. They respect us 
on this front. You have got to get at this impunity issue. 
Getting at the impunity issue within the military is even as 
much or maybe more important than within the broader society; 
you start to see convictions for rapes and for other kinds of 
crimes in Congo of military officers or soldiers who are 
involved in this kind of stuff, then that sends a signal. So 
these are the building blocks to a state. And I think AFRICOM, 
for all the controversy in other fronts, can play a major 
important role in the Congo in helping to build that particular 
block of the larger foundation.
    Mr. Affleck. I think the relevance of AFRICOM there has to 
do with--you know, look, MONUSCO does all of the training now, 
the FARDC. They work together; they train guys. They are having 
difficulties. We are better at it than they are. I met some of 
our guys down there doing this work. They are obviously great 
guys. They are U.S. military. They really know what they are 
doing, men and women. They are doing very good just training 
very few units. That is good. It needs to happen.
    And I hate to have all these answers come with caveats, 
because then I don't want to feel like, well, you know, but you 
have got to do everything. But really that has to be 
accompanied by some reform in the units that they go back to. 
Particularly a huge, huge problem is that soldiers just don't 
get paid. A legacy from the Mobutu era was you kind of went and 
lived off the people. Mobutu had destroyed all the 
infrastructure and eaten up all the money, and so he sent his 
army around, and it was like, well, if you want to get paid, 
take what you can take; you have got a gun. There is a little 
bit of that left. Not a little bit, a lot, unfortunately. I 
visited FARDC battalion camps. They are like tent cities. They 
are a little better than the refugee camps. In fact, they often 
go and loot and pillage those refugee camps. FARDC soldiers are 
responsible for 40 percent of the rapes in the country. This is 
where you have a military that is deployed among the population 
that is feeding off of the population. It is unimaginable to 
us. Our militaries go elsewhere and secure our freedoms. This a 
horrible inversion of that.
    The eastern Congo would be better off, I think, if you just 
took the divisions out of there. That is not practical 
politically. But what is practical is to go around and just 
train troops on one side. I would love for us to take over a 
little bit more and do some training of the MONUSCO guys. But 
on the other side, get people paid. You are going to make $40 a 
month being a soldier in the FARDC, but at least it is enough 
to buy what you need where you are not compelled to go out--I 
mean, they walk. There are stationed in Kisangani. It is 800 
miles to go somewhere. They walk that far. It is like you know, 
ancient Rome.
    Ms. Bass. Thank you.
    Mr. Smith. Mr. McDermott.
    Mr. McDermott. Thank you, Mr. Chairman.
    I would like you to respond to the need for PEPFAR money 
being included for the Congo in the treatments, particularly in 
terms of maternal-infant transmission of AIDS and the fact that 
PEPFAR does not affect the Congo. That is one thing I would 
like.
    And the second thing is I think you get a little more 
humble as you go along in this business and you realize that 
passing a bill isn't everything that it is cut out to be. You 
are going to have the champagne and have a good time, clap your 
hands and be happy. It really is writing the rules and 
regulation where it really happens. And that is going on right 
now.
    And I would like you, John,to talk about what the committee 
can do, because you put this up as an action item, what the 
committee should be looking for in the writing of those rules 
and regulations as to whether they are good rules and 
regulations or whether they are slippery. I have been doing 
this long enough to know that you can't hardly write a law that 
somebody can't figure out a way to get around. So what I am 
really looking for is the best set of rules and regulations 
that we can have to make this law work and what things we as a 
committee should be looking at or we as a Congress should be 
looking at.
    Ms. Vigaud-Walsh. Congressman McDermott, I am sorry, I 
can't answer that question as I don't work in AIDS relief and I 
am not familiar with that kind of programming.
    Mr. Prendergast. I don't know the specific answer on 
PEPFAR, but I think between us, between our staffs, we can get 
back.
    Mr. McDermott. I know it is a problem in HEAL Africa in 
Goma, because I know where they are getting their drugs or not 
getting their drugs----
    Mr. Affleck. You are right, they are short on drugs in HEAL 
Africa. And particularly--anyway there are shortages that need 
to be addressed. PEPFAR is a great program and obviously 
implementation is good, and getting people access to those 
drugs is important, and we can furnish the committee with 
details of that.
    Mr. McDermott. I was asking a softball so you could let the 
subcommittee know, but go ahead.
    The more tough question is the regulations.
    Mr. Prendergast. I think the top two I would say for the 
SEC regulations, they are getting bombarded right now because 
the industry lost that battle on the Hill. And they are mad, 
and they are coming back with lots of lobbyists to try to press 
the SEC to water this thing down. Like you said, so keep the 
cork in the champagne, we are not done yet, you are absolutely 
right.
    Number one, I think that there will be stiff fines for 
companies that do not comply with the intent of the law, do not 
open up the books to demonstrate that their supply chains 
indeed are free of conflict. And if they are not, they are at 
least acknowledging, yes, we got it from there, and yes, we 
know where it came from, and now, consumers, you can make your 
choices. But if you try to hide it, you try to circumvent it, 
you try to subvert it, then let's see you some serious fines.
    Secondly, I think then is the question of when this all 
should come into effect. And I think one of the big things that 
you are seeing lobbyists push for now is a significant delay in 
implementation. We haven't yet seen the State Department make 
its own recommendations in this regard, but I talked to a 
senior member of the administration last night who said that 
they were going to not advocate for delay. I hope that his 
opinion actually ends up being the U.S. Government's opinion. 
But right now, the SEC is hearing from a lot of industry 
sources that they simply can't comply with all this. Although 
other companies, particularly within the electronics industry, 
they have been working on this now for a couple of years, 
partly as a response to the legislation, but partly also 
because some of them want to do the right thing. And they have 
shown very clearly that they can do what is required to do with 
respect to the law.
    Illustratively, Apple, 1\1/2\ years ago, Apple was not much 
of a contributor to the Electronics Industry Association in its 
efforts to try to clean up the supply chain. Basically their 
argument if you talked to them about it was, look, we have no 
idea where this stuff is coming from or how can we possibly be 
expected to know; it is a war down there and where it comes 
from is not really something we can control. Well, a week ago, 
now we have had the legislation, we have had Mr. Jobs actually 
get personally engaged, and his wife, of course, with ECI. Now, 
a week ago, Apple put out whatever report that it does, and it 
was the most robust reporting of any company of where their 
materials are coming from, right down to the smelters, to the 
processors. I mean, this is something, again, the lobbyists 
said a year ago, even that were working for Apple, said it was 
impossible.
    So basically I think this is what the legislation is going 
to be able to do. It is going to urge people to actually do the 
right thing when they have said for quite a long time they 
can't. They actually can, so the question is, how fast are they 
going to have to do it? And instead of a delay of 1 year or 2 
years or whatever some of these guys are asking for, we would 
like to see the timely implementation of the regulations to 
come into force very quickly after the SEC makes its rulings.
    Mr. McDermott. Keep on making the publicity to keep it up 
above the radar. Thank you.
    Ms. Vigaud-Walsh. Thank you. Just to add one note. Catholic 
Relief Services and USCCB did write the SEC to ask for the 
absolutely most strongest rules possible, and we hope for a 
timely implementation as well. Thank you.
    Mr. McDermott. Good. Thank you.
    Mr. Smith. Thank you, Mr. McDermott.
    Mr. Payne, do you have anything?
    Mr. Payne. I just wanted to say that we do have to really 
make sure that they don't change. What was interesting years 
ago, I was able to encourage Congressman Tancredo, who was 
working with me on Sudan, to get a bill passed in the House 
that capital market sanctions were put in. In other words, if 
you were doing business with Sudan, you had to come out of Wall 
Street. And we passed it in the House. That is where it ended, 
when a lobbyist ran over to the Senate, even had the head of 
every top one. And Mr. Tancredo, who was great on Sudan, we 
didn't have champagne when it passed, but we were very happy. 
And it simply died by virtue of the lobbyists saying, you can't 
do that. So hopefully we will be able to push this through.
    I just have comments from the International Crisis Group 
that would like to add their statement for the record, Mr. 
Chairman.
    Mr. Smith. Without objection.
    Mr. Payne. Thank you.
    Mr. Smith. I will just conclude by, again, thanking you.
    I would like to ask if--and maybe, Mr. Prendergast, you 
might want to speak to this--the administration's LRA strategy. 
How well or poorly do you think it is being implemented? What 
is it from your perspective? Anyone else who would want to 
touch on it as well?
    Mr. Prendergast. Thanks for bringing that up. I should have 
at least in my testimony. I think it is such a crucial element 
of overall security and stability in Central Africa. We battled 
internally within our organizations in the groups that care 
about the LRA. We were putting out this report card, and I was 
trying to give the administration Ds and Fs, and everybody was 
like, no, no, no, that will just demoralize everyone. Because I 
feel like there is one major thing that has to be done.
    I mean the elephant is swinging its tail around the living 
room. It is that you have to create a focused military strategy 
to apprehend or whatever the leadership of the Lord's 
Resistance Army. As long as Joseph Kony continues to run 
around. We have presented him with a very, very fair peace 
deal, peace proposal, which he didn't even bother to show up to 
not sign. And so there is a military option that needs to be 
exercised.
    What has happened now over the last 3 years is a broader 
counterinsurgency strategy, where millions and millions of 
dollars and thousands of Ugandan troops are running around 
Central Africa attacking LRA units, and often those are 
conscripted child soldiers. So I don't think that kind of a 
broad counterinsurgency strategy has any chance of working. We 
need to target the leadership, use our technical assets that 
are superior to anyone's in the world, ensure that they are out 
there. We robustly support a commando unit to be able to close 
and act on a hot lead and take these guys out.
    Hopefully, we will apprehend them and send them to Hague, 
and there will be a great trial, and the ICC will have a major 
success. If not, let's do what we have to do to bring an end to 
this tragedy, because the attacks in the Congo are getting 
worse, not better. We have seen almost an attack every week 
over the last few months in northeastern Congo. And these are 
remote areas no one knows. Every once in a while a report 
trickles in and makes a little column in a local newspaper here 
in the United States. We are not even looking at this anymore. 
So we have to refocus and say, what is the thing that is going 
to end it? That is the catalyst I think that will end it.
    Mr. Affleck. I think he makes a really good point. I think 
absolutely I have seen people. I have seen the evidence of this 
stuff and people who are after it. There are really good people 
involved in trying to pursue some of the goals that John is 
talking about. And you do hear, every month or 2, oh, well, 400 
people got killed and such and such. A lot of times, it will 
take 2 or 3 days or a week to even come through. I think it is 
equally important to maintain a focus on the FDLR in eastern 
Congo. The FDLR really are the people that--well, still their 
leadership now--committed the genocide in Rwanda, fled to what 
was then Zaire, created--injected this sort of sociopath toxic 
poison. It wasn't like people weren't raping one another in 
Zaire. You know, that is where everyone in Rwanda was going to 
party and dance when Rwanda was the uptight country in the 
early 1990s. And what happened was that these people who got 
pushed into that place who committed these barbaric crimes then 
sort of allowed that to be--it got contagious, and they further 
ruptured the social fabric. The subsequent two wars completely 
obliterated any infrastructure.
    These guys are still there, and they are still killing 
civilians all the time. They are a big part of who is 
committing the rapes, and they are the ones that we need to 
stay at, and we need to support MONUSCO's effort to do that, 
despite some push back. And I think it is important to remember 
there is the CNDP, and obviously, they have committed a lot of 
crime. They are now part of the Army that presents--you know, 
Congo has openly said peace first, justice second. And they are 
going to testify with that kind of thing. But there is no 
question about the FDLR because they are now getting pulled 
into the army and some of them are going to fight to the death. 
And that part of the country will not be safe until that 
militia is dealt with, as well as the LRA, who is varying from 
Uganda to CAR and stuff.
    Mr. Smith. Thank you.
    And one final statement or question. There is no doubt that 
if Senator Danforth had not initiated the work with regards to 
the Comprehensive Peace Agreement in the Congo, there probably 
would not have been a comprehensive peace agreement in Sudan. 
And in like manner, in Northern Ireland, had it not been more 
Senator Mitchell, it is unlikely that a peace agreement would 
have been hammered out there between two disparate parties that 
were at each other's throats for decades.
    One last appeal, when Ambassador Yamamoto said he will take 
it under advisement with regards to the special representative 
or special envoy, I didn't get a very strong sense of 
affirmation there. If you could, all of you if you would like, 
make one final appeal to the administration because time is 
running. And the fear is that if we don't have someone who can 
really cobble together all the disparate elements here and 
really push hard, this may be an opportunity lost.
    Mr. Payne. I just would like to reemphasize that. It is the 
key thing if we are going to see success in the DRC, and it is 
vital.
    And finally, I certainly would like to commend you, Mrs. 
McCain, for, you know, when you said you had been involved 
since 1994, to continue to be way ahead of the curve, and I 
really commend you for that and for your continued interest. 
Thank you.
    Mr. Affleck. Thank you very much.
    On the special advisor, I haven't heard any good arguments 
against it. We have been banging on it, talking about it and 
going everywhere asking about it, and no one can tell me why it 
is a bad idea. It is one appointment in the Federal Government 
that could save potentially, who knows, 100,000 lives or 
500,000 lives, a lot. It will make a difference, a big 
difference. If it helps prevent another outbreak of violence 
and destruction--I don't know Washington, I am not an expert. 
What I hear is that it is a tough place because you have got 
turf battles and bureaucracy, and fortunately, that is your 
business and not mine. But I am really pleased to be encouraged 
by you and to be empowered by you to continue to advocate for 
this, because I, too, think it is really important.
    And I know that Ambassador Yamamoto, were he to give us his 
full-throated support and Assistant Secretary Carson give us 
his support, it will would really help us to go to the 
Secretary, even on, if necessary, to President Obama.
    Thank you again.
    Mr. Payne. Mr. Smith, you have been asking probably why we 
should have it. Maybe you should just turn the question around 
and ask them why not and see if they can come up with an 
answer.
    Ms. Vigaud-Walsh. Chairman, you started off speaking about 
the elections, and I think that my final appeal would regard 
increasing women's political participation. As I said before, 
we are at a critical juncture, and we are not seeing women 
represented. In fact, not only are they being sidelined, but 
they are being cast out of the process.
    And to give you an example, after enduring sustained 
pressure by their male counterparts, three female mayors in 
South Kivu, the equivalent of mayors, but actually of a 
grouping of cities, quite a high position in fact, 
administrative position, were forced out of office. The bishop 
of Bukavu had even gone to them and tried to encourage them to 
carry out their political mandate and represent women and 
girls' needs, and finally, in November, they were fired. It is 
unacceptable.
    And if women do not represent themselves and their needs, 
their health, their education needs, then who will? We are not 
seeing others in the DRC represent their needs. So that would 
be my final appeal. Thank you.
    Mr. Prendergast. I think we need to understand that the 
system is like, We have got this. We have got this under 
control. The system doesn't like aberrations. They don't like 
these things like special envoys and other kind of exceptions 
to the rule. That is just the way institutions work, and the 
State Department is no different than any other institution. My 
understanding is--and this is what I fear, and I am glad we got 
our last chance to say this because I want to impart this to 
you, is my fear is that they are going to give this position--
they are going to create the title of it and then give it to a 
Deputy Assistant Secretary of State. They are going to dual-hat 
a Deputy Assistant Secretary of State and say, Yes, that is 
going to our point person, our lead person. Again, no human 
being has enough time to be a Deputy Assistant Secretary of 
State of any regional bureau in the U.S. State Department and 
be a special envoy to one of the most complicated countries in 
the world, definitely the most complicated I have ever been in 
in 25 years of working in Africa. So that would be a tragic 
mistake.
    And secondly, I think, that position needs juice--sorry to 
use a Hollywood term. You need influence, you need gravitas, 
you need somebody who can make the system respond to different 
ideas, new ideas, to doing things in a way that are actually 
going to get results and bring an end to something rather than 
manage symptoms. And that person needs to report to the 
Secretary of State as opposed to being just only in a regional 
bureau. I think these are the keys of success; and if we don't 
have them, it is just going to be yet another little spoke in a 
wheel of failure.
    Mr. Smith. Thank you. Mrs. McCain.
    Mrs. McCain. Lastly, I would just like to thank all of you 
again for paying attention to this issue, for listening to us, 
for allowing us to tell you our thoughts and where we think the 
most important parts lie and, most importantly, in championing 
this issue from here because we will be following you and we 
are going to watch. And we really encourage you to continue in 
such a whole-hearted way. As a mother--and the only thing I can 
say is that as a mother, doing nothing is unacceptable there. 
So thank you.
    Mr. Smith. Thank you. And the last word goes to Mrs. 
McCain. Thank you so very much. Truly inspiring panel. Truly 
inspiring individuals. The hearing is adjourned.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Carnahan statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Affleck FTR deg.__

 Material submitted for the record by Mr. Ben Affleck, actor, writer, 
                          director, & advocate

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Payne FTR deg.__

 Material submitted for the record by the Honorable Donald M. Payne, a 
        Representative in Congress from the State of New Jersey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
